The Federal Deposit Insurance Corporation (FDIC) is an independent
agency created by the Congress to maintain stability and
confidence in the nation’s banking system by insuring deposits,
examining and supervising financial institutions, and managing
receiverships. Approximately 4,900 individuals within seven
specialized operating divisions and other offices carry out the FDIC
mission throughout the country. According to most current FDIC
data, the FDIC insured more than $4.7 trillion in deposits in over
8,300 institutions, of which the FDIC supervised approximately
5,100. The Corporation held insurance funds of $ 18.9 billion to
ensure depositors are safeguarded. Receiverships under FDIC
control totaled 41, with $15 billion of assets in liquidation.
2
                                        Inspector General’s
                                        Statement




I
I am pleased to provide this            issued the results of 4 such reviews   financial institutions. We have a
semiannual report on the activi-        during the reporting period,           large number of mortgage fraud
ties and accomplishments of the         and had 18 others ongoing at           cases that we are pursuing as well
Federal Deposit Insurance Corpo-        the end of the reporting period.       as other cases involving bank
ration (FDIC) Office of Inspector       Based on the cumulative results        fraud, embezzlements, bribery,
General (OIG) from October 1,           of such reviews, we have formu-        and kickbacks. We continue to
2008 through March 31, 2009.            lated initial summary observa-         work closely and partner with
The audits, evaluations, investiga-     tions on the causes, trends, and       the FDIC, Department of Justice,
tions, and other activities high-       characteristics of such failures.      Federal Bureau of Investigation,
lighted in this report illustrate the   We intend to analyze certain of        and other federal and state law
OIG’s on-going commitment to            those issues in more detail and        enforcement organizations to
promoting efficiency, effective-        form recommendations, as indi-         successfully conduct this work
ness, and integrity and helping         cated, in the upcoming months.         and appreciate the solid working
the Corporation successfully                                                   relationships we have with them.
                                        We also evaluated the controls in
achieve its longstanding mission
                                        the FDIC’s processing of applica-      In closing, I express my gratitude
of maintaining stability and
                                        tions under the Troubled Asset         to Patricia M. Black, former Deputy
public confidence in the nation’s
                                        Relief Program’s Capital Purchase      Inspector General, who retired
banking system. Over the last
                                        Program and made several recom-        after an exceptional federal career
6 months, our office issued 14
                                        mendations in that regard. We          of more than 34 years. She played
audit and evaluation reports. We
                                        have initiated a number of key         a critical role in assisting me and
closed 24 investigations, with over
                                        assignments to review aspects          guiding others in the office as we
$55 million in total fines, restitu-
                                        of the Corporation’s mounting          addressed the many challenges
tion, and monetary recoveries.
                                        resolution and receivership            of the day. I also thank the OIG
As discussed in more detail in          activities and some of the new         Executive team and staff for their
this report, our efforts and results    programs the FDIC has under-           efforts during these stressful times.
are directly tied to the unfolding      taken, such as the Temporary           I look forward to continuing to
events of the economy and finan-        Liquidity Guarantee Program,           work with FDIC leadership, the
cial services industry. For example,    loan modification programs,            Congress, and colleagues in the
under the Federal Deposit Insur-        loss share arrangements, and           Inspector General community
ance Act, my office is required to      the Legacy Loan Program. In            in helping to maintain stability
perform a material loss review          conducting all of this work, we        and public confidence in the
when an FDIC-supervised institu-        are coordinating closely with          nation’s banking system.
tion failure results in a material      others in the Inspector General
loss to the Deposit Insurance Fund,     community to leverage resources
currently defined as the greater        and maximize our effectiveness.
of $25 million or 2 percent of the
institution’s assets at the time of     With respect to our investigative
closing. These reviews determine        activity, we are currently working     Jon T. Rymer
the cause of failure and assess         about 175 active investigations,       Inspector General
supervision of the institution. We      most of which involve fraud at         April 30, 2009
                                        or impacting open or closed
                                                                                                                 1
2
OIG                 Table of Contents



  Inspector General’s Statement.........................................................................1
  Abbreviations and Acronyms............................................................................4
  Highlights and Outcomes..................................................................................5
  Strategic Goal Areas
  Supervision: Assist the FDIC to Ensure the Nation’s
  Banks Operate Safely and Soundly.................................................................9
  Insurance: Help the FDIC Maintain the Viability of the
  Insurance Fund.................................................................................................... 22
  Consumer Protection: Assist the FDIC to Protect
  Consumer Rights and Ensure Customer Data
  Security and Privacy........................................................................................... 25
  Receivership Management: Help Ensure that the FDIC
  is Ready to Resolve Failed Banks and Effectively
  Manages Receiverships.................................................................................... 28
  Resources Management: Promote Sound Governance
  and Effective Stewardship and Security of Human,
  Financial, Information Technology, and Physical Resources.............. 30
  OIG Internal Processes: Build and Sustain a
  High-Quality Staff, Effective Operations,
  OIG Independence, and Mutually Beneficial
  Working Relationships...................................................................................... 36
  Reporting Requirements................................................................................. 42
  Information Required by the Inspector General Act of 1978,
  as amended........................................................................................................... 43
  Congratulations and Farewell to Retirees................................................. 49




                                                                                                                         3
    Abbreviations and Acronyms
    ADC	          acquisition, development, and construction
    ALLL	         allowance for loan and lease losses
    AMG	          American Macro Growth
    C&D	          Cease and Desist Order
    C&DC	         Computer & Data Consultants, Inc.
    CAMELS	       Capital Adequacy, Asset Quality, Management, Earnings,
    	             Liquidity, and Sensitivity to Market Risk
    CEP	          Corporate Employee Program
    CIGIE	        Council of the Inspectors General on Integrity and Efficiency
    CPP	          Capital Purchase Program
    CRE	          commercial real estate
    DIF	          Deposit Insurance Fund
    DIT	          Division of Information Technology
    DRR	          Division of Resolutions and Receiverships
    DSC	          Division of Supervision and Consumer Protection
    ECIE	         Executive Council on Integrity and Efficiency
    ECU	          Electronic Crimes Unit
    FBI	          Federal Bureau of Investigation
    FDI Act	      Federal Deposit Insurance Act
    FDIC	         Federal Deposit Insurance Corporation
    FNBB	         First National Bank of Blanchardville
    FPB	          First Priority Bank
    FY	           Fiscal Year
    GAO	          Government Accountability Office
    GPRA	         Government Performance and Results Act of 1993
    HELOC	        Home Equity Lines of Credit
    HUD	          Department of Housing and Urban Development
    IG	           Inspector General
    IndyMac	      IndyMac Bank, FSB
    IP	           Internet Protocol
    IT	           Information Technology
    Mercantile	   Mercantile-Safe Deposit & Trust Company
    MLR	          Material Loss Review
    OERM	         Office of Enterprise Risk Management
    OFR	          Office of Financial Regulation
    OI	           Office of Investigations
    OIG	          Office of Inspector General
    OMB	          Office of Management and Budget
    ORL	          Offsite Review List
    OSBC	         Office of the State Bank Commissioner
    PCA	          Prompt Corrective Action
    PCIE	         President’s Council on Integrity and Efficiency
    RTC	          Resolution Trust Corporation
    SSB	          Silver State Bank
    TARP	         Troubled Asset Relief Program
    WaMu	         Washington Mutual Bank




4
                                       Highlights and
                                       Outcomes




T
The OIG’s 2009 Business Plan           real estate. In an evaluation of      of a mortgage broker in a land-
contains five strategic goals that     controls over the FDIC’s processing   flipping scheme. In another case,
are closely linked to the FDIC’s       of Troubled Asset Relief Program      12 individuals were sentenced
mission, programs, and activities,     Capital Purchase Program applica-     for their roles in a massive home
and one that focuses on the OIG’s      tions from FDIC-supervised institu-   equity line of credit fraud scheme
internal business and manage-          tions, we determined that overall,    that enriched them temporarily
ment processes. These highlights       the FDIC’s controls provide reason-   and impacted at least 16 different
show our progress in meeting           able assurance that the Corpora-      lenders in the northern New Jersey
these goals during the reporting       tion is complying with Department     area. Their sentences ranged from
period. A more in-depth discus-        of the Treasury guidance. We          2 to 20 months, with restitution
sion of OIG audits, evaluations,       made two recommendations to           orders totaling nearly $13 million.
investigations, and other activities   enhance those controls. Ongoing       The Office of Investigations also
in pursuit of these goals follows.     work in support of this goal at       continued its close coordination
Strategic Goal 1                       the end of the reporting period       and outreach with the Division
Supervision: Assist the                included 18 material loss reviews     of Supervision and Consumer
FDIC to Ensure the                     of failed FDIC-regulated banks.       Protection (DSC), the Division of
Nation’s Banks Operate                 With respect to investigative work,   Resolutions and Receiverships
Safely and Soundly                     as a result of cooperative efforts    (DRR), and the Legal Division by
                                       with U.S. Attorneys throughout        way of attending quarterly meet-
Our work in helping to ensure that                                           ings, regional training forums,
the nation’s banks operate safely      the country, numerous individuals
                                       were prosecuted for financial         and regularly scheduled meetings
and soundly takes the form of                                                with DSC and the Legal Division
audits, investigations, evaluations,   institution fraud, and we achieved
                                                                             to review Suspicious Activity
and extensive communication and        successful results in combating
                                                                             Reports and identify cases of
coordination with FDIC divisions       a number of mortgage fraud
                                                                             mutual interest. (See pages 9-21.)
and offices, law enforcement           schemes. Our efforts in support of
agencies, other financial regula-      the Department of Justice’s Opera-    Strategic Goal 2
tory OIGs, and banking industry        tion Malicious Mortgage and other     Insurance: Help the FDIC
officials. During the reporting        mortgage fraud working groups         Maintain the Viability
period, we completed four mate-        also supported this goal. Particu-    of the Insurance Fund
rial loss reviews of institutions      larly noteworthy results from         Our material loss review work
whose failures resulted in losses      our casework include multiple         supports this goal, as does the
to the Deposit Insurance Fund          sentencings for a mortgage fraud      investigative work highlighted
ranging from $72 million to $533       scheme where three individuals        above. In both cases, our work can
million. Another audit in this area    received prison sentences ranging     serve to prevent future losses to
addressed FDIC risk management         from 18-60 months and were            the fund by way of recommenda-
examination coverage of institu-       ordered to pay restitution totaling   tions that can help to prevent
tion underwriting practices for        $5.8 million. Another of our inves-   future failures, and the deterrent
consumer loans not secured by          tigations led to the sentencing       aspect of investigations and the
                                                                                                               5
ordered restitution that may help      authority for misrepresentation of       From an investigative standpoint,
to mitigate an institution’s losses.   FDIC affiliation or insurance. In that   we continued to coordinate with
We conducted audit work to             regard, the OIG’s Electronic Crimes      DRR to pursue concealment of
assess FDIC controls related to the    Unit responded to instances              assets investigations related to
Off-site Review List, a monitoring     where emails and facsimiles were         the criminal restitution that the
tool used to identify institutions     misused to entice consumers to           FDIC is owed. (See pages 28-29.)
with potential problems. We made       divulge personal information and         Strategic Goal 5
recommendations for improve-           successfully deactivated 14 fraudu-      Resources Management:
ments to that tool. At the end of      lent email accounts and 6 fraudu-        Promote Sound Gover-
the reporting period, ongoing          lent facsimile numbers used for          nance and Effective
work in this goal area included        such purposes. (See pages 25-27.)        Stewardship and Security
an audit of the FDIC’s investment
                                       Strategic Goal 4                         of Human, Financial, IT,
management practices related to
                                       Receivership Manage-                     and Physical Resources
the Deposit Insurance Fund, an
                                       ment: Help Ensure that                   The OIG addressed a number of
evaluation related to the failure
                                       the FDIC is Ready to                     important areas in conducting
of IndyMac Bank, FSB focusing
                                       Resolve Failed Banks and                 work in support of this goal area.
on the FDIC’s awareness of the
                                       Effectively Manages                      One of our evaluations examined
condition of the institution and
                                       Receiverships                            the FDIC’s Corporate Employee
actions it took as back-up regu-
lator and deposit insurer, and an      We had several key assignments           Program, a training program
assessment of internal controls        in the planning stages in this           designed to ensure that by training
pertaining to the Corporation’s        goal area as of the end of the           and cross-divisional opportunities,
Temporary Liquidity Guarantee          reporting period. One evaluation         the FDIC workforce will be fully
Program. (See pages 22-24.)            will identify and evaluate controls      capable and ready to respond to
Strategic Goal 3                       in place over the contracting and        changes in examination or resolu-
Consumer Protection:                   legal services functions to address      tion and receivership priorities. We
Assist the FDIC to                     the risks presented by a signifi-        performed an audit of follow-up
Protect Consumer                       cant increase in resolution and          actions taken related to the FDIC’s
Rights and Ensure                      receivership-related contracting         controls over the confidentiality of
Customer Data Security                 activity. A second evaluation will       sensitive email communications.
and Privacy                            cover the loss share provisions,         Other evaluations this period
                                       including those in the assistance        focused on two security areas: mail
Audits, evaluations, and investiga-    agreements with Citigroup and            handling and screening proce-
tions can contribute to the FDIC’s     Bank of America, to ensure compli-       dures at FDIC facilities and guard
protection of consumers in several     ance with all related terms, such as     services provided to protect FDIC
ways. We completed an evaluation       those involving asset eligibility and    buildings and people. Additionally,
of enforcement actions for compli-     institution management of guaran-        we completed an audit of over-
ance violations, conducted at the      teed assets. Planned work involves       sight management of the FDIC’s
request of the FDIC Chairman.          assessing the FDIC’s efforts for         contract with ARAMARK. In each
Management’s response to this          monitoring implementation of loan        instance, we made recommenda-
work indicated a willingness and       modification programs at various         tions for improvements to controls
commitment to devote sufficient        institutions. We are working jointly     or other activities in the interest of
resources to ensure an effective       with the Department of the Trea-         ensuring the success of the efforts.
enforcement action program.            sury OIG to determine the events         We also promoted integrity
The OIG was pleased to learn           leading to the need for the FDIC-        in FDIC internal operations
that the Emergency Economic            facilitated transaction involving        through ongoing OIG Hotline
Stabilization Act of 2008 contains     Washington Mutual Bank, including        referrals and coordination
a long-supported provision that        evaluating the FDIC’s supervision        with the FDIC’s Ethics Office, as
the OIG helped to draft giving         and monitoring of Washington             warranted. (See pages 30-35.)
the FDIC increased enforcement         Mutual Bank in its role as insurer.
6
Strategic Goal 6                        We encouraged individual growth      provided this assessment to FDIC
OIG Internal Processes:	               through professional develop-         management for inclusion in the
Build and Sustain a                    ment by planning and conducting       Corporation’s performance and
High-Quality OIG Staff,                a 4-day training conference for       accountability report and factored
Effective Operations,                  FDIC OIG and other financial          this assessment into our FY 2009
OIG Independence, and                  regulatory OIG staff related to       planning. We submitted the OIG’s
Mutually Beneficial                    Financial Institution Analysis and    2008 Assurance Statement to the
Working Relationships                  Supervision, with an emphasis on      FDIC Chairman, in accordance with
                                       Material Loss Review training. We     the annual requirement under
To ensure effective and efficient
                                       also offered opportunities for OIG    which the OIG provides assurance
management of OIG resources,
                                       staff to attend graduate schools of   that the OIG has made a reason-
among other activities, we
                                       banking to further their expertise    able effort to meet the internal
continued realignment of the OIG
                                       and knowledge of the complex          control requirements of the
investigative resources with FDIC
                                       issues in the banking industry.       Federal Managers’ Financial Integ-
regions, and examined staffing
plans and budget resources to          Our office continued to foster        rity Act, OMB A-123, and other key
ensure our office is prepared to       positive stakeholder relation-        legislation. At GAO’s request, we
handle our increasing workload.        ships by way of Inspector General     provided the OIG’s perspectives
Further, we completed a project        and other OIG executive meet-         related to internal fraud risk at the
to upgrade the OIG’s audit and         ings with senior FDIC executives;     FDIC in connection with GAO’s
evaluation tracking system to          presentations at Audit Committee      responsibility under Statement of
better monitor costs and time          meetings; congressional inter-        Auditing Standards No. 99, Consid-
associated with our work. We           action; and coordination with         eration of Fraud in Financial State-
completed a quality monitoring         financial regulatory OIGs, other      ment Audits. (See pages 36-40.)
review in the Office of Audits to      members of the Inspector General
analyze quality assurance activities   community, other law enforce-
completed in calendar year 2008.       ment officials, and the Govern-
We also completed a training effort    ment Accountability Office
for OIG staff related to protecting    (GAO). The OIG participated in
personally identifiable informa-       corporate diversity events, and
tion by encrypting portable            we maintained and updated the
media devices and using Entrust        OIG Web site to provide easily
when sending sensitive email.          accessible information to stake-
                                       holders interested in our office
We continued to administer a
                                       and the results of our work.
contract to a qualified firm to
provide audit and evaluation           In the area of enhancing OIG
services to the OIG to enhance         risk management activities, we
the quality of our work and the        continued efforts to carry out and
breadth of our expertise. We           monitor the OIG’s fiscal year (FY)
continued use of the OIG’s end-        2009 business planning process.
of-assignment feedback forms           We also participated regularly at
to provide staff with input on         corporate meetings of the National
performance of individual audit        Risk Committee to monitor
and evaluation assignments, and        emerging risks at the Corporation
the Inspector General feedback         and tailor OIG work accordingly.
form for Office of Audits and          In accordance with the Reports
Office of Evaluations assign-          Consolidation Act of 2000, we
ments that focuses on overall          assessed the most significant
assignment quality elements,           management and performance
including time, cost, and value.       challenges facing the FDIC, and
                                                                                                                 7
    Significant Outcomes
    (October 2008– March 2009)
    Audit and Evaluation Products Issued                                             14
    Nonmonetary Recommendations                                                      28
    Investigations Opened                                                            36
    Investigations Closed                                                            24
    OIG Subpoenas Issued                                                             20
    Judicial Actions:
    	   Indictments/Informations                                                     82
    	   Convictions                                                                  48
    	   Arrests                                                                      51
    OIG Investigations Resulted in:
    	   Fines of                                                                $133,213
    	   Restitution of                                                       $54,960,585
    	   Asset Forfeiture of                                                      $10,000
    	   Other Monetary Recoveries of                                                  0
    	   Total                                                                $55,103,798
    Cases Referred to the Department of Justice (U.S. Attorney)                      28
    Cases Referred to FDIC Management                                                 1
    OIG Cases Conducted Jointly with Other Agencies                                 154
    Hotline Allegations Referred                                                     51
    Proposed Regulations and Legislation Reviewed                                    11
    Proposed FDIC Policies Reviewed                                                  10
    Responses to Requests and Appeals under the Freedom of Information Act           10




8
                Strategic Goal 1:
                The OIG Will Assist the FDIC
                to Ensure the Nation’s Banks
                                                                                               1
                Operate Safely and Soundly




T
T
The Corporation’s supervision
program promotes the safety and
soundness of FDIC-supervised
insured depository institutions.
The FDIC is the primary federal
regulator for approximately 5,100
FDIC-insured, state-chartered
institutions that are not members
                                         tion is to effectively evaluate the
                                         safety and soundness of the bank,
                                         including the assessment of risk
                                         management systems, financial
                                         condition, and compliance with
                                         applicable laws and regulations,
                                         while focusing resources on the
                                         bank’s highest risks. Part of the
                                                                                 identify what caused the mate-
                                                                                 rial loss, evaluate the supervision
                                                                                 of the federal regulatory agency
                                                                                 (including compliance with the
                                                                                 Prompt Corrective Action require-
                                                                                 ments of the FDI Act), and propose
                                                                                 recommendations to prevent
                                                                                 future failures. In January 2009, the
of the Federal Reserve System            FDIC’s overall responsibility and       Inspectors General of the FDIC, the
(generally referred to as “state non-    authority to examine banks for          Department of the Treasury, and
member” institutions). The Depart-       safety and soundness relates to         the Federal Reserve Board wrote
ment of the Treasury (the Office of      compliance with the Bank Secrecy        to the Chairman of the House
the Comptroller of the Currency          Act, which requires financial           Financial Services Committee to
and the Office of Thrift Supervi-        institutions to keep records and        ask that the Congress consider
sion) or the Federal Reserve Board       file reports on certain financial       increasing the threshold for
supervise other banks and thrifts,       transactions. An institution’s          conducting material loss reviews.
depending on the institution’s           level of risk for potential terrorist   We explained that if the current
charter. The Corporation also has        financing and money laundering          threshold remained in effect, it
back-up examination authority            determines the necessary scope of       would limit the OIGs’ ability to
to protect the interests of the          the Bank Secrecy Act examination.       effectively oversee many of the
Deposit Insurance Fund (DIF)             In the event of an insured deposi-      new and significant programs
for nearly 3,200 national banks,         tory institution failure, the Federal   and initiatives the federal banking
state-chartered banks that are           Deposit Insurance (FDI) Act             agencies are undertaking. During
members of the Federal Reserve           requires the cognizant OIG to           the past 6-month reporting period,
System, and savings associations.        perform a review when the DIF           33 FDIC-insured institutions failed.
                                         incurs a material loss. A loss is       Nineteen of these triggered
The examination of the institu-
                                         considered material to the insur-       the need for the FDIC OIG to
tions that it regulates is a core FDIC
                                         ance fund if it exceeds $25 million     conduct a material loss review.
function. Through this process,
the FDIC assesses the adequacy of        and 2 percent of the failed institu-    The OIG’s audits and evaluations
management and internal control          tion’s total assets. The FDIC OIG       are designed to address various
systems to identify, measure, and        performs the review if the FDIC         aspects of the Corporation’s super-
control risks; and bank examiners        is the primary regulator of the         vision and examination activities,
judge the safety and soundness of        institution. The Department of the      as illustrated in the write-ups that
a bank’s operations. The examina-        Treasury OIG and the OIG at the         follow. Through their investiga-
tion program employs risk-focused        Board of Governors of the Federal       tions of financial institution fraud,
supervision for banks. According         Reserve System perform reviews          the OIG’s investigators also play a
to examination policy, the objec-        when their agencies are the             critical role in helping to ensure
tive of a risk-focused examina-          primary regulators. These reviews       the nation’s banks operate safely
                                                                                                                     9
and soundly. Bank manage-              the OIG’s investigation caseload.      period included 18 additional
ment is the first line of defense      The OIG is also committed to           material loss reviews to deter-
against fraud, and the banks’          continuing its involvement in inter-   mine the causes for the failures of
independent auditors are the           agency forums addressing fraud.        FDIC-supervised financial institu-
second line of defense. Because        Such groups include national and       tions and an audit of the FDIC’s
fraud is both purposeful and           regional bank fraud, check fraud,      brokered deposit waiver process.
hard to detect, it can significantly   mortgage fraud, cyber fraud,
raise the cost of a bank failure,      identity theft, and anti-phishing      Material Loss Reviews
and examiners must be alert            working groups. Additionally, the
                                                                              We conducted four material loss
to the possibility of fraudulent       OIG engages in industry outreach
                                                                              reviews (MLR) during the reporting
activity in financial institutions.    efforts to keep financial institu-
                                                                              period. Losses associated with
                                       tions informed on fraud-related
The OIG’s Office of Investigations                                            these failures ranged from $72
                                       issues and to educate bankers on
works closely with FDIC manage-                                               million to $533 million. In accor-
                                       the role of the OIG in combating
ment in DSC and the Legal Divi-                                               dance with the FDI Act, the audit
                                       financial institution fraud.
sion to identify and investigate                                              objectives for each review were
financial institution crime, espe-     To assist the FDIC to ensure the       to (1) determine the causes of
cially various types of fraud. OIG     nation’s banks operate safely and      the financial institution’s failure
investigative efforts are concen-      soundly, the OIG’s 2009 perfor-        and resulting material loss to the
trated on those cases of most          mance goals are as follows:            DIF and (2) evaluate the FDIC’s
significance or potential impact         •	Help ensure the effectiveness      supervision of the institution,
to the FDIC and its programs. The          and efficiency of the FDIC’s       including implementation of the
goal, in part, is to bring a halt to       supervision program, and           Prompt Corrective Action (PCA)
the fraudulent conduct under                                                  provisions of section 38. The
investigation, protect the FDIC and      •	Investigate and assist in          four failures and corresponding
other victims from further harm,           prosecuting Bank Secrecy Act       MLRs are discussed below.
and assist the FDIC in recovery of         violations, money laundering,
                                           terrorist financing, fraud,        In addition to issuing separate
its losses. Pursuing appropriate
                                           and other financial crimes in      reports on each FDIC-supervised
criminal penalties not only serves
                                           FDIC-insured institutions.         institution failure resulting in
to punish the offender but can also
                                                                              a material loss, we also plan to
deter others from participating
                                                                              provide additional coverage of
in similar crimes. Our criminal        OIG Work in Support                    causes, trends, and characteristics
investigations can also be of
                                       of Goal 1                              in a series of summary reports and
benefit to the FDIC in pursuing
                                                                              other communications and make
enforcement actions to prohibit        The OIG’s Office of Audits issued
                                                                              recommendations accordingly.
offenders from continued partici-      five reports during the reporting
pation in the banking system.          period in support of our stra-         Material Loss Review of First
                                       tegic goal of helping to ensure        Priority Bank, Bradenton, Florida
When investigating instances
                                       the safety and soundness of the
of financial institution fraud,                                               On August 1, 2008, the State of
                                       nation’s banks. These reports
the OIG also defends the vitality                                             Florida, Office of Financial Regu-
                                       communicated the results of
of the FDIC’s examination                                                     lation (OFR), closed First Priority
                                       four material loss reviews and an
program by investigating asso-                                                Bank (FPB) and named the FDIC
                                       audit of examination coverage
ciated allegations or instances                                               as receiver. On August 19, 2008,
                                       of underwriting practices for
of criminal obstruction of bank                                               the FDIC notified the OIG that
                                       consumer loans not secured by
examinations and by working                                                   FPB’s total assets at closing were
                                       real estate. We also completed our
with U.S. Attorneys’ Offices to                                               $241 million, and the estimated
                                       evaluation of the Troubled Asset
bring these cases to justice.                                                 loss to the DIF was $72 million.
                                       Relief Program Capital Purchase
The OIG’s investigations of finan-     Program. Ongoing or planned            FPB was a state-chartered
cial institution fraud currently       audit work in support of the goal      nonmember bank insured on
constitute about 89 percent of         area as of the end of the reporting    December 8, 2003. As a “de novo”
10
bank for its first 3 years in opera-    examinations of FPB. Addition-        liquidity plans. However, we
tion, FPB was subject to addi-          ally, the FDIC provided oversight     reported that FPB’s loan documen-
tional supervisory oversight and        through its off-site monitoring       tation and administration defi-
regulatory controls, including          process and accelerated exami-        ciencies should have warranted
the development and main-               nations as a result of identified     greater concern during the 2006
tenance of a current business           deficiencies. As a result of the      examination. Specifically, during
plan and increased examination          November 2006 examination,            that examination, FPB was in a
frequency. With five branches in        the FDIC delayed its approval of      de novo status; the loan portfolio
Florida, FPB engaged principally        three FPB branch applications         had begun to deteriorate and was
in traditional banking activi-          until FPB provided information        highly concentrated in high-risk
ties within its local marketplace,      on how the bank would address         CRE/ADC loans; loan administra-
which experienced a significant         examination concerns. As a result     tion issues, identified as early as
economic downturn starting              of the September 2007 examina-        the FDIC’s 2004 examination, were
in 2006. FPB had no holding             tion, and after various OFR and       uncorrected or in need of improve-
company, subsidiaries, or affiliates.   FPB discussions regarding the         ment; ALLL was inadequate; and
FPB’s assets consisted principally      bank’s condition and proposed         FPB’s risk profile was increasing.
of commercial real estate (CRE)         regulatory actions, the FDIC, in      Greater concern regarding FPB’s
loans, including a significant          conjunction with the OFR, took        loan documentation and adminis-
concentration in residential acqui-     supervisory action in February        tration deficiencies could have led
sition, development, and construc-      2008 to address management’s          to elevated supervisory attention
tion (ADC) loans. The FDIC has          failure to implement correc-          and earlier supervisory action.
recognized the increased risk that      tive actions in response to audit
                                        and/or examiner concerns. Such        In its written response, DSC
CRE loans present to financial insti-
                                        concerns included, but were not       agreed with the OIG’s conclu-
tutions and has issued guidance
                                        limited to, inadequate manage-        sions regarding the causes of
that describes a risk management
                                        ment oversight, poor asset quality,   FPB’s failure and resulting mate-
framework to effectively identify,
                                        the need to increase capital and      rial loss and the supervisory
measure, monitor, and control CRE
                                        improve earnings, an inadequate       activities related to FPB. DSC also
concentration risk. That frame-
                                        allowance for loan and lease losses   agreed that the results of the
work includes effective oversight
                                        (ALLL), noncompliance with laws       November 2006 examination
by bank management, including
the Board of Directors and senior       and regulations, and an outdated      related to FPB’s loan documen-
executives, and sound loan              liquidity policy. Further, in March   tation and administration defi-
underwriting, administration, and       and May 2008, the FDIC notified       ciencies should have warranted
portfolio management practices.         FPB of applicable restrictions        greater supervisory action.
                                        under PCA when FPB fell below
Our MLR reported that FPB failed        the well capitalized category, and    Material Loss Review of The
primarily due to bank manage-           in June 2008, the FDIC issued         Columbian Bank and Trust
ment’s aggressive pursuit of            a PCA Directive. The FDIC has         Company, Topeka, Kansas
asset growth concentrated in            authority to take a wide range of     On August 22, 2008, the State of
high-risk CRE loans with inad-          supervisory actions. In the case
equate loan underwriting and                                                  Kansas, Office of the State Bank
                                        of FPB, however, supervisory          Commissioner (OSBC), closed
a lack of other loan portfolio          actions were not always timely
and risk management controls.                                                 Columbian and named the FDIC
                                        and effective in addressing the       as receiver. On September 11,
Resulting losses severely eroded        bank’s most significant problems.
FPB’s earnings and capital, and                                               2008, the FDIC notified the OIG
negatively impacted liquidity,          The FDIC has taken steps to           that Columbian’s total assets at
leading to the bank’s failure           improve its supervisory review        closing were $726 million, with a
and a material loss to the DIF.         of business plans, oversight of       material loss to the DIF estimated
                                        financial institutions that have      at $61.5 million. As of December
With respect to supervision, the        CRE loan concentrations and use       31, 2008, the estimated loss to the
FDIC and OFR conducted timely           interest reserves, and contingency    DIF increased to $232 million.
                                                                                                                11
Columbian, originally a national        growth, and underfunding of the         CRE loans while the 2007 examina-
bank that became insured on             ALLL. As a result of the July 2007      tion report was being processed
October 2, 1978, was head-              examination, the OSBC, in consul-       from July to November 2007.
quartered in Topeka, Kansas.            tation with the FDIC, downgraded
                                                                                DSC’s written response to the
The FDIC became the primary             Columbian’s composite rating,
                                                                                draft report agreed with the
federal regulator of Columbian          and the FDIC expedited the 2008         OIG’s conclusions regarding the
in December 1996. At closing,           examination. The FDIC did not           causes of Columbian’s failure
the bank had seven branches             issue a PCA Directive to Columbian      and resulting material loss and
in Kansas and one in Missouri.          because the bank had not become         the supervisory activities related
Columbian was wholly owned              undercapitalized. In July 2008,         to Columbian. DSC also agreed
by a two-bank holding company,          the FDIC and OSBC jointly issued        that increased supervisory
which was wholly owned by an            a Cease and Desist Order (C&D)          action, commensurate with the
individual serving as a Director        in an attempt to stop Columbian         risks these weaknesses posed
and a Vice President of Columbian.      from operating in an unsafe and         to the institution, should have
Columbian’s loan portfolio largely      unsound manner. Among the               been implemented sooner.
consisted of CRE loans, with a          19 provisions, the C&D called
significant concentration in land       for improvements in the bank’s          Material Loss Review of Integrity
ADC loans, many of which were           liquidity and funds manage-             Bank, Alpharetta, Georgia
brokered and/or out-of-territory.       ment, use of brokered deposits,
                                        concentrations of credit, use of        On August 29, 2008, the Georgia
We reported that Columbian              interest reserves, maintenance of       Department of Banking and
failed primarily due to bank            a sufficient ALLL, and loan policy.     Finance (DBF) closed Integrity Bank
management’s pursuit of rapid                                                   and named the FDIC as receiver.
asset growth concentrated in            Although FDIC and OSBC examina-         On September 17, 2008, the FDIC
high-risk CRE/ADC loans, without        tions identified the weaknesses         notified the OIG that Integrity’s
adequate loan underwriting              in management, asset quality,           total assets at closing were $1.045
and credit administration prac-         and liquidity that ultimately led       billion, with a material loss to the
tices. Resulting losses due to          to Columbian’s failure, super-          DIF estimated at $295 million.
asset quality deterioration and a       visory action was not taken
                                        commensurate with the risks             Integrity was a state-chartered
downturn in the economy severely                                                nonmember bank that was estab-
eroded capital and, in turn, the        these weaknesses posed to the
                                        institution. Rather, Columbian’s        lished and insured on November 1,
availability of wholesale funding                                               2000. Integrity was headquartered
sources used by the bank to fund        apparent strong earnings and
                                        lack of non-performing loans,           in Alpharetta, Georgia, and, at
its growth. As a result, the bank                                               closing, had five other branches
was unable to satisfy liquidity         which were attributable to such
                                        factors as an understated ALLL and      in Georgia. Integrity was closely
requirements, leading to its failure.                                           held by Integrity Bancshares, Inc.,
                                        the mismanagement of interest
With respect to supervision, the        reserves, overshadowed supervi-         which had no other subsidiaries.
FDIC and OSBC conducted regular         sory concerns with Columbian’s          Integrity provided full-service
examinations of Columbian from          weaknesses until they became            commercial banking activities.
1996 until its closing in 2008. In      more pronounced based on                Integrity’s loan portfolio was
2005, OSBC reported weaknesses          changes in economic conditions.         concentrated in ADC loans.
in Columbian’s credit administra-       As a result, more timely supervi-       Integrity failed primarily due to
tion practices and noted the bank’s     sory action directed at Columbian’s     management’s aggressive pursuit
first use of brokered deposits as       high-risk lending and weak credit       of asset growth concentrating
a wholesale funding source. In          underwriting and administra-            in higher-risk ADC loans without
2006, in addition to identifying        tion practices should have been         adequate controls. Integrity lacked
some of the weaknesses reported         taken. In particular, the institution   adequate loan underwriting
in the 2005 examination, the FDIC       continued to pay substantially          and other loan portfolio and
reported concerns regarding             increased dividends, accept             risk management controls and
out-of-territory lending, rapid loan    brokered deposits, and originate        liquidity management practices
12
to support its growth strategy.         DSC agreed with the OIG’s conclu-       and robust credit risk manage-
Resulting losses severely eroded        sions regarding the causes of           ment practices. The guidance also
Integrity’s capital, leading to its     Integrity’s failure and the resulting   re-emphasized the interagency
failure and material loss to the DIF.   material loss. DSC noted that           guidance provided to banks in
Our report notes that the FDIC and      facts regarding Integrity’s largest     December 2006 that provided
DBF conducted timely examina-           borrowing relationship and              a framework for assessing CRE
tions of Integrity. The FDIC also       significant control weaknesses in       concentrations. The FDIC also
provided oversight through its          the loan approval processes did         updated and re-emphasized
off-site monitoring process. In         not come to light until the 2007        CRE loan examination guidance
February 2008, the FDIC issued a        examination. However, in our view,      to examiners in July 2008. The
C&D and conducted a visitation to       greater concern for Integrity’s         guidance focused on examiner
review actions taken as a result of     loan administration and under-          understanding of concentrations,
the C&D. Further, in July 2008 and      writing weaknesses identified in        market conditions, underwriting
again in August 2008, the FDIC          the 2005 and 2006 examinations          and credit risk management, and
used its authority under the PCA        could have led to earlier super-        capital and ALLL adequacy.
provisions of the FDI Act to issue      visory action regarding Integ-          We reported that SSB failed
PCA Directives when Integrity           rity’s borrowing relationships.         primarily due to bank manage-
became undercapitalized and then                                                ment’s high-risk business
                                        Material Loss Review of Silver
significantly undercapitalized. The                                             strategy. SSB pursued aggressive
                                        State Bank, Henderson, Nevada
FDIC has authority to take a wide                                               loan growth, concentrating in
range of supervisory actions. In the    On September 5, 2008, the               higher-risk CRE loans, and relied
case of Integrity, however, super-      Nevada Financial Institutions           on funding from high-cost and
visory actions were not timely          Division closed Silver State Bank       volatile sources. This business
and effective in addressing the         (SSB), Henderson, Nevada, and           strategy, coupled with weak
bank’s most significant problems.       named the FDIC as receiver. On          risk management practices and
                                        September 30, 2008, the FDIC noti-      controls, left the bank unpre-
Our report acknowledges that the
                                        fied the OIG that SSB’s total assets    pared and unable to effectively
FDIC has taken steps to improve its
                                        at closing were $1.887 billion, with    manage operations in a declining
supervisory oversight of financial
                                        a material loss to the DIF estimated    economic environment. As loan
institutions that have concentra-
                                        at $505 million. As of December         losses increased, earnings and
tions in ADC loans and use interest
                                        31, 2008, the estimated loss to the     capital eroded. SSB experienced
reserves. However, examiners
                                        DIF increased to $553 million.          a severe liquidity crisis as deposi-
noted deficiencies in Integrity’s
asset quality in the 2005 and 2006      SSB was a state-chartered,              tors withdrew their funds, and the
examinations that should have           nonmember bank that was                 bank was at significant risk of not
warranted greater concern. Specifi-     established and insured on July         being able to meet its obligations
cally, these examinations identified    1, 1996. SSB was headquartered          when it was closed by the Nevada
significant risks in Integrity’s loan   in Henderson, Nevada. When the          Financial Institutions Division.
portfolio, including a high concen-     bank failed, it operated 17 full-       In our view, the FDIC could have
tration in ADC and individual           service branches in Nevada and          exercised greater supervisory
loans; out-of-territory lending; and    Arizona. SSB’s loan portfolio was       concern and taken additional
loan administration issues that         concentrated in CRE loans and           action to help prevent the
were not corrected in subsequent        ADC loans. The FDIC has recog-          bank’s failure and/or to miti-
examinations as Integrity’s risk        nized the increased risk that CRE       gate the potential level of losses
profile was increasing. Greater         loans present to financial institu-     incurred. Specifically, although
concern regarding Integrity’s loan      tions and updated and re-empha-         the FDIC identified SSB’s loan
administration and declining            sized bank guidance in March            concentrations and funding
asset quality could have led to         2008. In particular, this guidance      sources as potential high-risk
elevated supervisory attention          re-emphasized the importance of         areas of concern in examina-
and earlier supervisory action.         strong capital, an adequate ALLL,       tions completed as early as 2005,
                                                                                                                  13
the FDIC took limited actions to       DSC’s written response generally       coverage of institution under-
mitigate the bank’s aggregate          agreed with the OIG’s conclusions      writing practices for consumer
level of risk exposure. With respect   regarding the causes of SSB’s          loans not secured by real estate,
to SSB’s Capital Adequacy, Asset       failure. However, DSC stated that      we noted that examiners did not
Quality, Management, Earn-             SSB management was receptive to        always properly complete the
ings, Liquidity, and Sensitivity to    examiner recommendations and           required Underwriting Survey.
Market Risk (CAMELS) ratings,          identified positive actions that SSB   The FDIC uses these surveys to
DSC assigned SSB a composite 2         took to improve its operations in      track whether institutions are
rating as recently as the May 2007     response to the 2007 examination.      making loans without adequate
examination, and only first identi-    DSC indicated that asset quality       collateral protection and the
fied SSB as a potential supervi-       deteriorated quickly in 2008.          extent to which the institutions
sory concern during the March          Nonetheless, our view remains          make loans to borrowers who
2008 visit to SSB as part of DSC’s     that DSC could have exercised          lack a demonstrable ability to
Commercial Real Estate Lending         greater supervisory concern            repay. Completed surveys also
Visitation Program. DSC did not        and taken additional action to         provide information about an
downgrade the bank’s ratings           address SSB conditions and risks.      institution’s underwriting trend
until the following examination                                               since the last examination and
in July 2008—SSB’s last exami-         Examination Coverage of                current underwriting practices.
nation before the bank failed.         Underwriting Practices
Further, aside from placing a Bank                                            We therefore recommended that
                                       for Consumer Loans Not                 the Director of DSC strengthen
Board Resolution in 2005, which
included provisions related to         Secured by Real Estate                 controls over the Underwriting
CRE loan concentrations, the FDIC      We conducted an audit to assess        Surveys to ensure the complete-
did not place any other supervi-       FDIC risk management examina-          ness and accuracy of survey data.
sory or corrective actions on the      tion coverage of institution under-    DSC indicated that it planned to
bank, including PCA directives.        writing practices for consumer         meet the intent of our recom-
                                       loans not secured by real estate.      mendation as part of its ongoing
Based on our review of the FDIC’s
                                       As of March 31, 2008, FDIC-super-      revisions to the Underwriting
Reports of Examination and
                                       vised institutions held approxi-       Survey, which will be renamed
available corresponding working
                                       mately $94.7 billion in consumer       the Credit and Consumer
papers and discussions with FDIC
                                       loans not secured by real estate.      Products Survey, intended to
and Nevada Financial Institutions
                                       Such loans are used by consumers       enhance the quality and quan-
Division personnel, we identified
                                       to finance a wide array of items,      tity of information collected.
several concerns regarding the
FDIC’s supervision of SSB. Specifi-    such as: automobiles, appliances,
cally, DSC could have done more        furniture, home repairs, education     Controls Over the FDIC’s
to: recognize and/or analyze risk;     costs, medical expenses, and vaca-     Processing of Capital
set a proper tone in the Reports       tions. Accordingly, it is important    Purchase Program Applica-
of Examination; appropriately          for FDIC examiners to adequately
                                       assess the risks associated with       tions from FDIC-Supervised
consider risk in CAMELS ratings;
                                       such consumer loans when they          Institutions
ensure that proper controls and
risk limitation and/or mitiga-         represent a material percentage        In October 2008, the Congress
tion strategies were established       of an institution’s assets.            passed and the President signed
and appropriately implemented;         We determined that DSC has             the Emergency Economic Stabi-
identify in a timely manner SSB’s      established sound risk manage-         lization Act of 2008, which estab-
increasing risk profile, including     ment examination guidance for          lished the Office of Financial
concentrations in targeted market      the reviews of consumer loans not      Stability within the Department of
areas, as a potential concern;         secured by real estate in FDIC-        the Treasury (Treasury) and autho-
and deal assertively with bank         supervised institutions. Although      rized the Troubled Asset Relief
management on examination              our overall conclusion was posi-       Program (TARP). Among other
findings and recommendations.          tive with respect to examination       things, the Act provides Treasury
14
with broad, flexible authorities to    CPP applications that provide         or acquire other institutions.
buy up to $700 billion in “troubled    reasonable assurance that the         We made two recommendations
assets” and allows Treasury to         Corporation is complying with
                                                                             to enhance controls over the
purchase and insure mortgages          Treasury’s CPP guidance. Based
                                                                             CPP application review process
and securities based on mort-          on our review, we determined
                                                                             related to (1) forwarding applica-
gages and, in consultation with        that the FDIC followed the
                                                                             tions recommended for approval
the Chairman of the Board of           Treasury guidance for substan-
                                                                             that do not meet one or more
Governors of the Federal Reserve       tially all of the applications we
                                                                             of Treasury’s criteria to the CPP
System, purchase any other finan-      reviewed. DSC issued examina-
                                                                             Council for additional review
cial instrument deemed necessary       tion procedures in February
                                                                             and (2) requiring Washington
to stabilize financial markets.        2009 for monitoring compliance
                                                                             Office review of institutions
Under the TARP, Treasury will          with CPP award provisions. Such
                                                                             recommended for withdrawal
purchase up to $250 billion of         procedures will allow the FDIC
                                                                             when the institutions technically
preferred stock through a Capital      to measure participating institu-
                                                                             meet the Treasury criteria. DSC
Purchase Program (CPP). The CPP        tions’ success in deploying TARP
                                                                             concurred with both recom-
is available to qualifying financial   capital and ensure that the funds
                                                                             mendations and proposed
institutions. Treasury will deter-     are used in a manner consistent
                                                                             actions that were responsive
mine eligibility and allocations for   with the intent of the Congress.
                                                                             to our recommendations.
interested parties after consulta-     DSC officials initially noted that
tion with the appropriate federal      Treasury did not specify limits       Successful OIG Investiga-
banking agency. Specifically, in       on institutions’ use of CPP funds     tions Uncover Financial
the case of the FDIC, the Corpora-     and indicated that the FDIC did
tion analyzes CPP applications
                                                                             Institution Fraud
                                       not intend to track applicants’
from state nonmember banks             use of funds. CPP application         As mentioned previously, the
and makes a recommendation to          forms developed by Treasury           OIG’s Office of Investigations’
Treasury on whether a CPP request      also did not require applicants       work focuses largely on fraud
should be approved or denied.          to state their intended use of        that occurs at or impacts finan-
                                       CPP funds. The FDIC advised           cial institutions. The perpetra-
We conducted an evaluation to
                                       state nonmember banks that            tors of such crimes can be those
assess the FDIC’s process and
                                       they could use the CPP to bolster     very individuals entrusted with
controls associated with reviewing
                                       capital or to support acquisitions,   governance responsibilities at
applications from FDIC-supervised
                                       both of which could ultimately        the institutions—directors and
institutions to participate in the
                                       allow for prudent lending.            bank officers. In other cases,
TARP CPP and forwarding approval
                                                                             individuals providing profes-
recommendations to Treasury.           In mid-January 2009, the FDIC
                                                                             sional services to the banks,
At the time of our review, as of       issued a Financial Institution
                                                                             others working inside the bank,
January 15, 2009, the FDIC had         Letter to state nonmember banks
                                                                             and customers themselves are
received 1,615 applications from       that it expected institutions to
                                                                             principals in fraudulent schemes.
FDIC-supervised institutions           monitor the use of CPP funds
requesting almost $34 billion          and show how participation in         The cases discussed below are
in TARP funding. The FDIC had          the CPP would expand prudent          illustrative of some of the OIG’s
recommended 408 applications to        lending activity, such as through     most important investigative
Treasury for approval, of which 267    a plan with definable metrics         success during the reporting
had received awards. FDIC officials    for measuring performance.            period. These cases reflect the
estimated that the Corporation                                               cooperative efforts of OIG investi-
                                       Based on our review of 172 appli-
would complete its review of the                                             gators, FDIC divisions and offices,
                                       cations, about 44 percent of appli-
remaining applications during                                                U.S. Attorneys’ Offices, and others
                                       cants indicated proposed uses
the second quarter of 2009.                                                  in the law enforcement commu-
                                       for CPP funds. The most common
We found that the FDIC has             stated uses of CPP funds were to      nity throughout the country.
established controls for reviewing     increase lending, bolster capital,    About 40 percent of our active
                                                                                                               15
cases address the increased            of Northern Texas for their roles            plea in the U.S. District Court for
incidence of mortgage fraud.           in a mortgage fraud scheme. The              the Eastern District of New York,
Other significant cases during         three defendants received prison             Brooklyn, New York, to an indict-
the reporting period involve           sentences ranging from 18 to 60              ment charging her for her role
embezzlement, bribery and              months, and were ordered to pay              in a “stop foreclosure” scheme.
kickbacks, and bank fraud. The         restitution totaling $5,818,045.             The indictment charged the
OIG’s success in all such investi-     From December 2002 through                   defendant with bank fraud, wire
gations contributes to ensuring        March 2004, the defendants and               fraud, and conspiracy to commit
the continued safety and sound-        others engaged in a real estate              bank and wire fraud. The defen-
ness of the nation’s banks.            scheme to defraud various real               dant and her husband were loan
                                       estate lenders, buyers and sellers,          officers or agents of Exoro Funding
Successful Mortgage Fraud              including Fremont Investment                 and New Era Funding and oper-
Cases                                  and Loan (Fremont), Brea, CA. The            ated out of offices in Queens, New
Our office has successfully investi-   defendants located single family             York. The defendant recruited
gated a number of mortgage fraud       residences and then recruited                individuals whose properties were
cases over the past 6 months,          straw purchasers and borrowers               facing foreclosure and convinced
several of which are described         to purchase and finance the                  these people to sell their proper-
below. Perpetrators of these mort-     residences. Fraudulent loan docu-            ties to straw buyers who were also
gage schemes are receiving stiff       ments were then submitted to the             recruited by the defendant and
penalties and restitution orders.      lenders in the name of the straw             her husband. The victims were
Our involvement in such cases          borrowers falsely indicating that            typically promised that they could
is supplemented by our partici-        down payments had been made                  continue to live in their proper-
pation in a growing number of          by the borrowers. One of the                 ties rent free while the defendants
mortgage fraud task forces. Mort-      defendants, who worked for a title           “repaired” their credit. The victims
gage fraud is one of the fastest       company, would release the loan              were further told that they could
                                       proceeds early to other conspira-            buy back their properties after
growing white-collar crimes and
                                       tors, who would then purchase                their credit was “repaired.” None
is taking on new characteristics
                                       cashiers checks in the name of               of the victims either had their
in the current economic crisis as
                                       the straw borrowers to represent             credit repaired or were able to
perpetrators seek to take advan-
                                       the requisite down payment. The              buy back their property. After the
tage of an already bad situation.
                                       scheme caused the mortgage                   defendants recruited the straw
Such illegal activity can cause
                                       lenders and financial institutions           buyers, they, together with others,
financial ruin to homeowners and
                                       to make inflated loans; the defen-           fraudulently obtained mortgage
local communities. It can further
                                       dants then conspired to distribute           loans for the strawbuyers.
impact local housing markets and
                                       the fraudulently obtained loan               Source: Suspicious Activity Reports.
the economy at large. Mortgage
                                       proceeds among themselves and                Responsible Agencies: FBI and FDIC
fraud can take a variety of forms                                                   OIG. Prosecuted by the U. S. Attorney’s
                                       others. The defendants and others
and involve multiple individuals.                                                   Office, Eastern District of New York.
                                       executed contracts with the straw
We also work these and other
                                       borrowers stating they would be
cases based on a variety of                                                         Illinois Mortgage Broker is
                                       responsible for the loans, but they
excellent sources of referral and                                                   Sentenced in a Real Estate Land
                                       failed to fulfill their contract.
with partners both internal and                                                     Flipping Scheme
                                       Source: Federal Bureau of Investigation
external to the FDIC, as shown                                                      On January 22, 2009, a mortgage
                                       (FBI). Responsible Agencies: FDIC OIG and
in the write-ups that follow.          the FBI. Prosecuted by the U.S. Attorney’s   broker was sentenced in the
                                       Office for the Northern District of Texas.   U.S. District Court for the Central
Multiple Sentencings in
                                                                                    District of Illinois to 78 months of
Mortgage Fraud Case                    Guilty Plea in Mortgage Fraud
                                                                                    imprisonment, to be followed by
On January 23, 2009, three indi-       Case
                                                                                    60 months of supervised release.
viduals were sentenced in the          On February 27, 2009, a Queens               Restitution in the amount of
U.S. District Court for the District   mortgage broker entered a guilty             $1,752,445 was also ordered.
16
From 1999 through 2005, the                         Former Manager of Nations                statements regarding his income.
defendant, along with others,                       Home Lending Sentenced for               He then refinanced the mortgages
engaged in a real estate “land                      Participating in a Mortgage Loan         and created false documents, such
flipping” scheme to defraud                         Fraud Scheme                             as a Satisfaction of Mortgage, to
real estate lenders, buyers, and                                                             deceive the parties associated
                                                    On February 17, 2009, a former
sellers. The scheme involved more                                                            with the refinanced transactions.
                                                    manager of Nations Home
than 150 fraudulent real estate                                                              In doing so, the defendant directly
                                                    Lending, a division of Sutton
sales and financing transactions                                                             obtained the loan proceeds for his
                                                    Bank, Attica, Ohio, was sentenced
totaling more than $8 million                                                                personal benefit instead of using
                                                    in the U.S. District Court for the
and resulted in the fraudulent                                                               the loan proceeds to pay off the
                                                    Southern District of Ohio, to 51
receipt of more than $3 million,                                                             mortgages. The value of these
                                                    months of incarceration, to be
which the parties converted to                                                               two mortgages was $2.3 million.
                                                    followed by 3 years of supervised
their personal use or used to                                                                Source: Division of Supervision and
                                                    release. He was also ordered to
promote their ongoing scheme.                                                                Consumer Protection (DSC), Chicago
                                                    pay $645,925 in restitution.             Region. Responsible Agencies: FBI,
Source: Request from U.S. Attorney’s Office,
                                                    The defendant acquired residential       FDIC OIG, and the U.S. Postal Inspection
Central District of Illinois. Responsible
                                                                                             Service. Prosecuted by the U.S. Attor-
Agencies: FBI, FDIC OIG, and the U.S. Postal        real estate and two mortgages            ney’s Office, Southern District of Ohio.
Inspection Service. Prosecuted by the U.S.          in his own name by making false
Attorney’s Office, Central District of Illinois.
                                                                                             Accountant Pleads Guilty in
       Keeping Current with Mortgage Fraud Activities Nationwide                             Mortgage Fraud Case
 The FDIC OIG participates in the Department of Justice’s Operation Malicious                On October 6, 2008, a practicing
 Mortgage and in the following mortgage fraud working groups throughout                      accountant entered a guilty plea
 the country. We benefit from the perspectives, experience, and expertise of                 in the U.S. District Court for the
 all parties involved in combating the growing incidence of mortgage fraud                   Eastern District of New York,
 schemes.                                                                                    Brooklyn, New York, to a criminal
 National Bank Fraud                National Mortgage Fraud Working Sub-group.               information charging him with
 Working Group                                                                               conspiracy to commit wire fraud.
 Northeast Region                   Long Island Mortgage Fraud Task Force, Eastern
                                                                                             The defendant is an accountant
                                    District New York Mortgage Fraud Task Force; the
                                    Northern Virginia Real Estate Fraud Initiative Working
                                                                                             who operates a practice on Long
                                    Group, Manassas, Virginia; the New England Mort-         Island, New York. At the request
                                    gage Fraud Working Group.                                of other co-conspirators, the
                                                                                             defendant provided false and
 Southeast Region                   Middle District of Florida Mortgage and Bank Fraud
                                    Task Force, Southern District of Florida Mortgage        fraudulent tax returns and other
                                    Fraud Working Group, Northern District of Georgia        documents to support false state-
                                    Mortgage Fraud Task Force, Eastern District of North     ments on mortgage applications
                                    Carolina Bank Fraud Task Force.                          related to the borrower’s income.
 Midwest Region                     Chicago Mortgage Fraud Task Force, Dayton Area           Source: Request from the U.S. Attorney,
                                    Mortgage Fraud Task Force, Cincinnati Area Mortgage      Eastern District of New York, Brooklyn, New
                                    Fraud Task Force, St. Louis Mortgage Fraud Task Force,   York. Responsible Agencies: Immigra-
                                                                                             tion and Customs Enforcement, FDIC OIG,
                                    Kansas City Mortgage Fraud Task Force.
                                                                                             and the Internal Revenue Service, Criminal
 Southwest Region                   Seattle Mortgage Fraud Working Group, FBI Seattle        Investigation Division. Prosecuted by the U.S.
                                    Mortgage Fraud Task Force, Mortgage Fraud Task           Attorney’s Office, Eastern District of New York.
                                    Force for the Southern District of Mississippi,
                                    Oklahoma City Financial Crimes Suspicious Activity
                                    Report Review Work Group, North Texas Mortgage
                                    Fraud Working Group, the Eastern District of Texas
                                    Mortgage Fraud Task Force, the Texas Attorney
                                    General’s Residential Mortgage Fraud Task Force,
                                    Houston Mortgage Fraud Task Force, and the Los
                                    Angeles Mortgage Fraud Working Group.

                                                                                                                                          17
Other Investigative Case                    interests would not yet be publicly          services to the bank; and autho-
Results                                     recorded. Sentences ranged from              rizing payment by or on behalf
                                            2 to 20 months, and restitution              of the bank for IT services.
Multiple Sentencings in New                 orders totaled $12,967,385.
                                                                                         During the summer of 2002,
Jersey Home Equity Line of Credit           Source: Request from the U.S. Attorney’s     the former senior vice presi-
Fraud Case                                  Office, District of New Jersey, Newark,
                                                                                         dent learned that there was an
                                            New Jersey. Responsible Agencies: FBI
During the period December 9-12,            and FDIC OIG. Prosecuted by the U. S.        unused balance of approximately
2008, 12 defendants were sentenced          Attorney’s Office, District of New Jersey.   $400,000 in Mercantile’s “soft
for their roles in a scheme to fraudu-                                                   dollars” account at UBS Warburg.
lently obtain more than $20 million         Contractor Sentenced in Bribery              In return for utilizing UBS Warburg
in home equity loans and business           and Kickback Case                            to conduct trades of stocks and
lines of credit. Victims include at least   On November 21, 2008, a former               bonds, Mercantile accumulated
16 different lenders in northern New        contractor for Mercantile-Safe               “soft dollar” credits. Brokers like
Jersey, including Woori American            Deposit & Trust Company (Mercan-             UBS Warburg typically set aside a
Bank and Royal Asian Bank.                  tile), Baltimore, Maryland, was              percentage of the commissions
Three of the defendants were loan           sentenced to serve 2 months                  charged for securities transac-
brokers with American Macro                 in home confinement and 24                   tions as a credit or rebate that
Growth (AMG), in Palisades Park,            months of supervised release after           may be used by their clients to
New Jersey. AMG employees                   his period of confinement ends.              purchase “soft dollar” services.
helped other defendants use the             The defendant was also ordered               “Soft dollar” services typically
same properties as collateral for           to pay restitution of $87,500.               consist of investment-related
multiple home equity lines of                                                            data or products, such as research
                                            The defendant was an electrical
credit or “HELOCs,” even though                                                          reports pertaining to compa-
                                            engineer and computer technician
the loan amounts far exceeded                                                            nies or computer software, that
                                            who worked for a business known
the value of the properties that                                                         assist clients in either selecting
                                            as EMAX Electric. In early 2003,
were to serve as security. AMG                                                           or valuing securities. The former
                                            the defendant established his
misrepresented clients’ income                                                           senior vice president devised a
                                            own business, EMAX Technology.
and other important information                                                          scheme to defraud Mercantile and
                                            Both during the period when he
in order to increase the amounts                                                         its customers of the $400,000.
                                            was working for EMAX Electric
that clients would be eligible to           and once he established his own              In the late winter and spring of
borrow. AMG regularly submitted             business as EMAX Technology,                 2003, Mercantile’s former senior
falsified income tax returns on             the defendant spent most of his              vice president began to use the
behalf of its clients while applying        time working at the Mercantile               defendant’s new business, EMAX
for lines of credit. The falsified          headquarters building on various             Technology, as an intermediary
income tax returns grossly inflated         electrical wiring and computer-              for what were supposed to be
the clients’ income to create the           related tasks. While he was working          purchases of computer hardware
illusion that the applicants would          for the bank, the defendant was              and software for Mercantile from
be able to repay the loans.                 supervised by a former Mercantile            a company known as Computer &
In a HELOC, a borrower pledges the          senior vice president. (The former           Data Consultants, Inc. (C&DC). The
equity in the borrower’s property           Mercantile senior vice president             defendant received invoices from
as security for the line of credit.         was convicted and sentenced                  C&DC reflecting hardware and soft-
The bank’s security interest in the         during a previous reporting                  ware items supposedly delivered
property is then publicly recorded          period.) Among other things, the             directly to the former senior vice
so that other lenders will be aware         former senior vice president’s               president at Mercantile. The defen-
of prior claims on the property.            responsibilities included selecting          dant calculated a mark-up on the
The defendants executed the                 vendors to provide informa-                  amount of C&DC’s invoice and then
scheme by closing on multiple               tion technology (IT) services to             submitted an EMAX Technology
HELOCs in a short period of time            Mercantile; reviewing the perfor-            invoice for the revised amount to
so that the earlier lenders’ security       mance of vendors supplying IT                the former senior vice president.
18
Once the defendant received                  incarceration to be followed by                  knowingly hiring illegal aliens.
payment from Mercantile, he then             5 years of supervised release.
                                                                                              According to the information, in
issued a check to C&DC in the                He was ordered to pay restitu-
                                                                                              2003, the defendant obtained a
amount of its original invoice. The          tion to the FDIC in the amount
                                                                                              commercial construction loan of
defendant had no direct contacts             of $3,445,981. The defendant
                                                                                              approximately $4 million from
with anyone at C&DC, and never               was immediately remanded into
                                                                                              Chittenden Trust Company (Chit-
personally handled or transmitted            custody at the sentencing hearing.
                                                                                              tenden), Burlington, Vermont,
any of the hardware or software
                                             The defendant, who formerly                      for the purpose of building a
items that C&DC was suppos-
                                             operated a used car business                     Hampton Inn in Brattleboro,
edly providing to Mercantile.
                                             in Blanchardville, Wisconsin,                    Vermont. The defendant alleg-
In late November or early                    known as Trucks-4-U, engaged                     edly conspired with a construc-
December 2003, while he was                  in a scheme to defraud the First                 tion contractor to inflate the
still working at Mercantile, the             National Bank of Blanchardville                  stated cost of the construction
defendant was questioned by                  (FNBB), Blanchardville, Wisconsin.               project. Two separate construction
another Mercantile bank officer              To carry out the scheme, the                     contracts were completed. One of
about some of his work with the              defendant deposited approxi-                     the contracts between the parties
institution. The defendant subse-            mately $15 million worth of either               referenced the true construction
quently called the former senior             NSF or closed account credit card                cost; the other contract reflected
vice president to let him know               checks into his accounts at FNBB                 inflated cost figures. The inflated
that questions were being raised             for the purpose of fraudulently                  cost figures were given to Chit-
about the transaction. The two               reducing substantial overdrafts                  tenden, and the loan was based
men agreed to meet at the former             in the accounts. As a result of the              on those false figures. During
senior vice president’s residence.           scheme to defraud, the defen-                    the course of the construction
At this meeting, the defendant               dant received approximately $6.1                 project, a series of percentage of
told the former senior vice                  million in fraudulently obtained                 completion construction draw
president that he knew someone               loans from FNBB and thereafter                   requests were submitted based on
whom he could hire to prepare                defaulted on the loans, causing                  the false contract amount; Chit-
documents that could be supplied             a loss to FNBB of approximately                  tenden paid those draw requests.
to Mercantile to make it appear              $3.8 million. FNBB lost an addi-
that the subject work had actu-              tional $250,000 as a result of                   Also, between 2003 and 2006,
ally been performed. The former              overdraft accounts when FNBB                     the defendant received a series of
senior vice president agreed                 was closed by the Office of the                  additional commercial loans from
to pay the defendant a total of              Comptroller of Currency.                         Chittenden, valued at approxi-
$87,500 in return for generating                                                              mately $4.9 million. The defendant
                                             Source: Division of Resolutions and Receiver-
documents that could be supplied             ships (DRR). Responsible Agencies: FBI;          allegedly falsified his operating
to Mercantile in response to                 FDIC OIG; Internal Revenue Service, Criminal     entities’ books and records by
the questions that were being                Investigation Division; and Department of        inflating revenue to make it appear
                                             Agriculture OIG. Prosecuted by the U.S. Attor-   that his properties were operating
raised about the project.                    ney’s Office, Western District of Wisconsin.
Source: Request from the FDIC New York
                                                                                              profitably. Chittenden approved
Regional Office, DSC. Responsible Agen-      Hotel Operator Pleads Guilty to                  and funded the loans based, in
cies: FBI, FDIC OIG, and the U.S. Postal
                                             Defrauding a Financial Institution               part, on the financial statements.
Inspection Service. Prosecuted by the U.S.
Attorney’s Office, District of Maryland.     On October 2, 2008, a hotel                      The defendant also admitted that
                                             operator entered a guilty plea                   he hired at least 10 individuals
Bank Customer Sentenced for                  in the U.S. District Court for the               whom he knew to be illegal aliens.
Bank Fraud                                   District of Vermont to a criminal                Source: Request for assistance from the
October 23, 2008, a bank customer            information charging him with                    U.S. Attorney’s Office for the District of
                                                                                              Vermont and the FBI. Responsible Agencies:
was sentenced in the U.S. District           conspiracy, making false state-                  FBI, Immigration and Customs Enforce-
Court for the Western District               ments in connection with                         ment, FDIC OIG. Prosecuted by the U. S.
of Wisconsin to 100 months of                commercial loan applications, and                Attorney’s Office, District of Vermont.

                                                                                                                                      19
Former Bank Operations                         embezzlement. The defendant               applications were approved. The
Manager Sentenced                              was sentenced to serve 18                 pre-funding of loans resulted
On March 17, 2009, in the Colo-                months in prison to be followed           in an increased volume of new
rado District Court for the 14th               by 36 months of supervised                loans that benefited the defen-
Judicial District, a former bank               release; she was also ordered to          dant with high performance
operations supervisor of Alpine                pay restitution of $330,724.              ratings, bonuses, promotions,
Bank, Steamboat Springs,                                                                 and a “Banner’s Best” recognition
                                               The defendant embezzled funds
Colorado, was sentenced to 96                                                            award, as well as several raises.
                                               from Center through unauthorized
months of incarceration to be                  debit/credit activities involving         The defendant knew that the
followed by 60 months of manda-                commercial bank accounts,                 loan applications would require
tory parole. The defendant was                 unauthorized fund disbursements           more scrutiny, and that Banner
also ordered to pay $1,386,390                 through fraudulent block deposit          would have required additional
in restitution and several thou-               entries, and misdirection of              collateral. He manipulated
sand dollars in court fees.                    customer deposits. The proceeds           numerous loan documents in
The defendant and an accom-                    from these illegal activities             order to obtain credit approvals for
plice embezzled approximately                  were diverted, using the bank’s           select customers. The documents
$1.4 million from Alpine Bank.                 computer system, to individual            manipulated by the defendant
(The defendant’s accomplice, a                 and business bank accounts                included credit bureau reports,
former Alpine Bank teller, was                 controlled by the defendant.              appraisal reports, and on-line
also sentenced to 96 months of                 Source: Suspicious Activity Report.       tax assessment evaluations. The
incarceration during a previous                Responsible Agencies: FBI and the FDIC    defendant also misrepresented
reporting period.) The defen-                  OIG. Prosecuted by the U.S. Attorney’s    and altered real estate values,
                                               Office, Central District of California.
dants created internal documents                                                         borrower income, and credit
called “Advice of Charges,” forged                                                       histories and subsequently
                                               Former Bank Officer Sentenced
customer signatures to the docu-                                                         approved loan applications
ments, and made unauthorized                   On February 17, 2009, a former            that he knew to be fictitious.
cash withdrawals from customer                 branch manager and loan officer           Source: Suspicious Activity Report.
accounts. In an attempt to conceal             for Banner Bank (Banner), Walla           Responsible Agencies: FBI and FDIC OIG.
their theft, “hold mail” was placed            Walla, Washington, was sentenced          Prosecuted by the U.S. Attorney’s Office
on the customer accounts to                    in the U.S. District Court for the        for the Eastern District of Washington.
prevent the customers from                     Eastern District of Washington to
receiving their monthly account                                                          Former Bank President Indicted
                                               12 months and 1 day of incarcera-
statements and discovering the                                                           and Pleads Guilty
                                               tion to be followed by 5 years of
unauthorized debit transactions.               supervised release. The defendant         On February 13, 2009, a two-count
Source: Suspicious Activity Report and         was also ordered to perform 240           information was filed charging the
the Steamboat Springs Police Depart-           hours of community service and            former president of the Benton
ment. Responsible Agencies: FDIC OIG,          pay restitution of $440,042.              Banking Company (Benton), Benton,
Steamboat Police Department, and Routt
County Sheriff’s Office. Prosecuted by Routt                                             Tennessee, with misapplication of
                                               From December 2005 through
County, Colorado, District Attorney.                                                     bank funds. On March 31, 2009, the
                                               April 2006, the defendant devised
                                                                                         defendant entered a guilty plea to
                                               a scheme to defraud Banner. As a
Former Bank International Opera-                                                         the charges in the U.S. District Court
tions Manager Sentenced                        branch manager and loan officer
                                                                                         for the Eastern District of Tennessee.
                                               for Banner, the defendant made
On February 18, 2009, a former                 approximately 40 unauthor-                The defendant embezzled approxi-
international operations manager               ized and undisclosed monetary             mately $1.3 million beginning in
for Center Bank (Center), Los                  advances on one bank customer’s           2002 and used the proceeds for
Angeles, California, was sentenced             credit line. He then used the             his own personal use. He admitted
in the U.S. District Court for the             money to “gap fund” or pre-fund           to funding false loans totaling $4
Central District of California,                loans or line increases for other         million to shell limited liability
Los Angeles, California, for bank              bank customers before their loan          companies that were owned by
20
a Benton bank customer. The                     release, and was ordered to pay          when he did not qualify for the
purpose of these loans was to                   restitution of $3,343,298 for his role   loans. In 2005 and 2006, the
enable the bank customer to list                in a bank bribery and mail fraud         customer mailed false financial
these funds as “outside investors”              scheme to fund his investments.          statements to BB&T, Charles, West
on loan applications to other insti-            Two other defendants, former             Virginia, and the First National
tutions, so that the bank customer              officers of First National Bank of       Bank of Ronceverte, which falsely
could repay Benton for $2 million               Ronceverte, Ronceverte, West             inflated his assets and under-
in legitimate loans and $2 million              Virginia, were sentenced to serve        stated his liabilities. He received
in overdrafts that had been                     5 months and 9 months, respec-           loan proceeds based on the false
disguised as loans to third parties.            tively, and will each be on super-       financial statements. The defen-
Source: FDIC DSC. Responsible Agencies:         vised release for 36 months after        dant used approximately $4.2
FBI and FDIC OIG. Prosecuted by the U. S.       they serve their prison sentences.       million in funds he received from
Attorney’s Office for the Eastern District of   The former officers were also fined      the banks for his personal use.
Tennessee.
                                                $50,000 and $75,000, respectively.       Source: U.S. Attorney’s Office. Responsible
                                                                                         Agencies: FBI and FDIC OIG. Prosecuted by
Multiple Sentencings in Bank                    Our investigation established            the U.S. Attorney’s Office for the Southern
Bribery and Bank Fraud Case                     that the customer bribed the two         District of West Virginia.
                                                other defendants while they were
On October 17, 2008, a bank
                                                officers at the First National Bank      Sentencing of Former Bank Loan
customer was sentenced in the
                                                of Ronceverte. A $10,000 bribe           Officer
U.S. District Court for the Southern
                                                was made to influence the offi-
District of West Virginia, to serve                                                      On December 2, 2008, a former
                                                cers to advance over $4 million
97 months in prison, to be followed                                                      loan officer for Peoples Inde-
                                                in loan proceeds to the customer
by 60 months of supervised                                                               pendent Bank (Peoples), Boaz,
                                                                                         Alabama, entered a guilty plea in
                                                                                         Blount County, Alabama, to theft
   Strong Partnerships with Law Enforcement Colleagues                                   of property and was sentenced.
   The OIG has partnered with many U.S. Attorneys’ Offices throughout                    He was given a split sentenced
   the country in bringing to justice individuals who have defrauded                     of 2 years in jail and 5 years of
   the FDIC or financial institutions within the jurisdiction of the                     probation. The defendant was
   FDIC, or criminally impeded the FDIC’s examination and resolution                     also ordered to pay $321,946.
   processes. The alliances with the U.S. Attorneys’ Offices have yielded                He also agreed to consent to
   positive results during this reporting period. Our strong partnership                 an Order of Prohibition from
   has evolved from years of hard work in pursuing offenders through                     Further Participation pursuant
   parallel criminal and civil remedies resulting in major successes, with               to section 8(e) of the FDI Act.
   harsh sanctions for the offenders. Our collective efforts have served                 Our investigation disclosed
   as a deterrent to others contemplating criminal activity and helped                   that the former loan officer,
   maintain the public’s confidence in the nation’s financial system.                    over a 2-year period, embez-
   During the reporting period, we partnered with U.S. Attorneys’                        zled over $320,000 in bank
   Offices in the following states: Alabama, Arizona, Arkansas, Cali-                    funds by diverting bank
   fornia, Florida, Georgia, Illinois, Iowa, Kansas, Kentucky, Massa-                    customers’ funds to himself.
   chusetts, Michigan, Minnesota, Mississippi, Missouri, Nebraska,                       Source: FDIC DSC. Responsible Agencies:
   Nevada, New Jersey, New York, North Carolina, Ohio, Pennsylvania,                     FBI and FDIC OIG. Prosecuted by the Blount
                                                                                         County Alabama District Attorney’s Office.
   Tennessee, Texas, Utah, Vermont, Washington, and West Virginia.
   We also worked closely with the Department of Justice, FBI, other
   OIGs, state and local law enforcement officials, and FDIC divisions
   and offices as we conducted our work during the reporting period.




                                                                                                                                       21
      2                                   Strategic Goal 2:
                                          The OIG Will Help the FDIC
                                          Maintain the Viability of
                                          the Insurance Fund




FFederal deposit insurance remains
 a fundamental part of the FDIC’s
 commitment to maintain stability
 and public confidence in the
 Nation’s financial system. With
 enactment of the Emergency
 Economic Stabilization Act of
 2008, the limit of the basic FDIC
                                          trends and risks are communi-
                                          cated to the financial industry,
                                          its supervisors, and policymakers
                                          through a variety of regularly
                                          produced publications and ad
                                          hoc reports. Risk management
                                          activities include approving the
                                          entry of new institutions into
                                                                                   in July 2008, which caused an
                                                                                   estimated $10.7 billion loss to
                                                                                   the DIF. Over recent years, the
                                                                                   consolidation of the banking
                                                                                   industry has resulted in fewer
                                                                                   and fewer financial institutions
                                                                                   controlling an ever expanding
                                                                                   percentage of the Nation’s
 deposit insurance coverage was           the deposit insurance system,            financial assets. In recent years,
 raised temporarily from $100,000         off-site risk analysis, assessment       the FDIC has taken a number
 to $250,000 per depositor,               of risk-based premiums, and              of measures to strengthen its
 through December 31, 2009. A             special insurance examinations           oversight of the risks to the
 priority for the FDIC is to ensure       and enforcement actions. In light        insurance fund posed by the
 that the DIF remains viable to           of increasing globalization and          largest institutions, and its key
 protect depositors in the event          the interdependence of finan-            programs include the following:
 of an institution’s failure. This        cial and economic systems, the             •	Large Insured Depository
 fund was at $18.9 billion as of          FDIC also supports the devel-                Institution Program,
 the fourth quarter of 2008—this          opment and maintenance of
                                          effective deposit insurance and            •	Dedicated Examiner Program,
 compared to a balance of $52.4
 billion as of the fourth quarter         banking systems world-wide.                •	Shared National Credit
 of 2007. To maintain sufficient          Primary responsibility for identi-           Program, and
 DIF balances, the FDIC collects          fying and managing risks to the            •	Off-site monitoring systems.
 risk-based insurance premiums            DIF lies with the FDIC’s Division
 from insured institutions and                                                     The Congress enacted deposit
                                          of Insurance and Research, DSC,
 invests deposit insurance funds.                                                  insurance reform in early 2006
                                          and DRR. To help integrate the
                                                                                   to give the FDIC more discretion
 The FDIC, in cooperation with            risk management process, the
                                                                                   in managing the DIF and allow
 the other primary federal regula-        FDIC established the National
                                                                                   the Corporation to better price
 tors, proactively identifies and         Risk Committee (NRC), a
                                                                                   deposit insurance based on risk. In
 evaluates the risk and financial         cross-divisional body. Also, a
                                                                                   light of recent economic events,
 condition of every insured deposi-       Risk Analysis Center monitors
                                                                                   the Board has taken a number of
 tory institution. The FDIC also          emerging risks and recommends
                                                                                   actions in this regard. The assess-
 identifies broader economic and          responses to the NRC. In addi-
                                                                                   ment system has been modified,
 financial risk factors that affect all   tion, a Financial Risk Committee
                                                                                   and the Corporation adopted a
 insured institutions. The FDIC is        focuses on how risks impact the
                                                                                   restoration plan in October 2008
 committed to providing accurate          DIF and financial reporting.
                                                                                   to increase the reserve ratio to
 and timely bank data related to          Large banks pose unique risks to         the 1.15 percent threshold within
 the financial condition of the           the DIF, as illustrated by the failure   5 years. In February 2009, the
 banking industry. Industry-wide          of IndyMac Bank, FSB (IndyMac)           Board invoked the “extraordinary
22
circumstances” provision of the        tion Fund portfolios are managed    reviews of institutions on the
FDI Act and voted to extend the        consistent with the FDIC’s          ORL. As part of our audit, we also
restoration plan horizon to 7 years.   approved investment policies,       reviewed DSC’s implementa-
To help the FDIC maintain the          procedures, and practices. This     tion of a recommendation by
viability of the DIF, the OIG’s 2009   assignment is a follow-on to work   the Government Accountability
performance goal is as follows:        we conducted in 2005 related to     Office (GAO) for strengthening
                                       the FDIC’s investment policies.     the FDIC’s risk assessment activi-
  •	Evaluate corporate programs        The FDIC Chairman at the time       ties through periodic evaluations
    to identify and manage risks       requested that the OIG conduct      and monitoring of the Corpora-
    in the banking industry that       an independent audit of the         tion’s offsite monitoring systems.
    can cause losses to the fund.      corporate investment program        Our audit determined that DSC
We would note that the OIG’s           every 3 years and include the       has established internal controls
audit and evaluation work refer-       investment policies applicable to   for performing offsite monitoring
enced in Goal 1 also fully supports    the National Liquidation Fund.      of insured financial institutions.
the goal of maintaining the            Also at the end of the reporting    Specifically, each institution on the
viability of the DIF. Each material    period, we were conducting an       ORL must have an offsite review
loss, by definition, causes a loss     evaluation related to the IndyMac   completed and approved within
to the DIF. The OIG’s MLR work is      failure, focusing on such areas     3 months after the end of each
designed to help prevent such          as the FDIC’s monitoring and        quarter. We sampled 60 of the 577
losses in the future. Similarly,       awareness of the institution and    institutions on the December 31,
investigative activity described       the actions it took as back-up      2007 ORL and found that DSC had
in Goal 1 also fully supports          regulator and deposit insurer.      completed offsite reviews for each
the strategic goal of helping to                                           sampled institution, developed
maintain the viability of the DIF.     FDIC’s Controls Related to          supervisory strategies, and docu-
The OIG’s efforts often lead to        the Offsite Review List             mented the reviews in accordance
successful prosecutions of fraud in                                        with DSC policies and procedures.
                                       The federal banking agen-
financial institutions, and/or fraud
                                       cies, including the FDIC, have      Additionally, DSC has initiated a
that can cause losses to the fund.
                                       developed a number of tools         process for periodically evaluating
                                       for monitoring the health of        its offsite monitoring systems in
OIG Work in Support                    individual institutions and the     response to a February 2007 GAO
of Goal 2                              industry as a whole. The FDIC has   recommendation to evaluate
                                       developed eight offsite systems     and monitor these systems. DSC
As of the end of the reporting
                                       to monitor insured institutions     plans to evaluate, on a rotational
period, we had completed one
                                       between examinations. Three         basis, its offsite monitoring
audit in this strategic goal area.
                                       of these systems are used to        systems. However, at the time of
As described below, we assessed
                                       produce the Offsite Review List     our audit, no details regarding
the Corporation’s internal controls
                                       (ORL), which identifies insured     a schedule or procedures for
for performing off-site monitoring
                                       institutions with potential prob-   conducting evaluations were
activities of insured depository
                                       lems. Within the FDIC, DSC is       available, and no system evalu-
institutions. Another ongoing
                                       responsible for performing          ations had been performed.
audit in support of this goal area
                                       offsite monitoring of FDIC-
involves the FDIC investment                                               Although the FDIC has developed
                                       insured depository institutions.
program. We contracted with                                                an extensive offsite monitoring
KPMG, LLP to perform an audit          During the reporting period, we     program, we reported that
of the FDIC investment program,        conducted an audit to assess        opportunities exist for improve-
including the DIF portfolio and        DSC’s internal controls for         ment. Specifically, we found
the National Liquidation Fund.         performing offsite monitoring       that the ORL was not capturing
The audit objective is to assess       of insured financial institu-       a significant percentage of
the FDIC’s controls for ensuring       tions. The audit focused on         institutions that DSC, through
that the DIF and National Liquida-     the controls related to offsite     its risk management examina-
                                                                                                            23
tions, downgraded to a 3 rating
or worse, including many of the
institutions that ultimately failed.
We therefore recommended that
DSC: (1) validate the assump-
tions and methodology used in
the Statistical CAMELS Off-site
Rating; (2) ensure that the regular
evaluations of all offsite moni-
toring systems used to create the
ORL are performed as scheduled;
and (3) establish procedures to
evaluate all models-based offsite
monitoring systems and, as part of
these procedures, consider recent
failure and downgrade informa-
tion to test the efficacy of the
logic and assumptions used in the
offsite monitoring systems. In its
response to the audit, DSC stated
that it concurred with the recom-
mendations and completed the
recommended actions. Addition-
ally, DSC provided comments
regarding the accuracy of the ORL
as a predictive tool and stated that
DSC had completed the first of the
GAO-recommended evaluations.




24
             Strategic Goal 3:
             The OIG Will Assist the FDIC to
             Protect Consumer Rights
                                                                                            3
             and Ensure Customer Data
             Security and Privacy




C
Consumer protection laws are
important safety nets for Ameri-
cans. The U.S. Congress has long
advocated particular protec-
tions for consumers in relation-
ships with banks. For example:
  •	The Community Rein-
    vestment Act encourages
                                           of credit and leasing terms.
                                          •	The Fair and Accurate Credit
                                            Transaction Act further
                                            strengthened the country’s
                                            national credit reporting
                                            system and assists financial
                                            institutions and consumers in
                                            the fight against identity theft.
                                                                                committed to working with the
                                                                                Congress and others to ensure
                                                                                that the banking system remains
                                                                                sound and that the broader
                                                                                financial system is positioned
                                                                                to meet the credit needs of the
                                                                                economy, especially the needs
                                                                                of creditworthy households that
                                                                                may experience distress. Another
    federally insured banks to
                                        The FDIC serves a number of key         important priority is financial
    meet the credit needs of
                                        roles in the financial system and       literacy. The Chairman has
    their entire community.
                                        among the most important is             promoted expanded opportuni-
  •	The Equal Credit Opportunity        its work in ensuring that banks         ties for the underserved banking
    Act prohibits creditor practices    serve their communities and             population in the United States
    that discriminate based on race,    treat consumers fairly. The FDIC        to enter and better understand
    color, religion, national origin,   carries out its role by providing       the financial mainstream.
    sex, marital status, or age.        consumers with access to infor-         Consumers today are also
  •	The Home Mortgage Disclo-           mation about their rights and           concerned about data security
    sure Act was enacted to             disclosures that are required           and financial privacy. Banks are
    provide information to the          by federal laws and regula-             increasingly using third-party
    public and federal regula-          tions and examining the banks           servicers to provide support for
    tors regarding how deposi-          where the FDIC is the primary           core information and transac-
    tory institutions are fulfilling    federal regulator to determine          tion processing functions. Of
    their obligations towards           the institutions’ compliance with       note, the increasing globaliza-
    community housing needs.            laws and regulations governing          tion and cost saving benefits of
                                        consumer protection, fair lending,      the financial services industry
  •	The Fair Housing Act prohibits      and community investment. As a          are leading many banks to make
    discrimination based on             means of remaining responsive to        greater use of foreign-based
    race, color, religion, national     consumers, the FDIC’s Consumer          service providers. The obliga-
    origin, sex, familial status, and   Response Center investigates            tions of a financial institution to
    handicap in residential real-       consumer complaints about               protect the privacy and security of
    estate-related transactions.        FDIC-supervised institutions and        information about its customers
  •	The Gramm-Leach Bliley              responds to consumer inquiries          under applicable U.S. laws and
    Act eliminated barriers             about consumer laws and regula-         regulations remain in full effect
    preventing the affiliations of      tions and banking practices.            when the institution transfers the
    banks with securities firms         Recent events in the credit and         information to either a domestic
    and insurance companies and         mortgage markets present regula-        or foreign-based service provider.
    mandates new privacy rules.         tors, policymakers, and the finan-      Every year fraud schemes rob
  •	The Truth in Lending Act            cial services industry with serious     depositors and financial institu-
    requires meaningful disclosure      challenges. The FDIC Chairman is        tions of millions of dollars. The
                                                                                                                    25
OIG’s Office of Investigations          privacy, the OIG’s 2009 perfor-      enforcement actions, particu-
can identify, target, disrupt, and      mance goals are as follows:          larly fair lending-related refer-
dismantle criminal organiza-                                                 rals or enforcement actions.
                                          •	Contribute to the effective-
tions and individual operations
                                            ness of the Corporation’s        We presented the results of our
engaged in fraud schemes that
                                            efforts to ensure compliance     evaluation to the Chairman,
target our financial institutions
                                            with consumer protections at     including a description of actions
or that prey on the banking
                                            FDIC-supervised institutions.    the FDIC had taken and planned
public. OIG investigations have
                                                                             that were responsive to our find-
identified multiple schemes that          •	Support corporate efforts
                                                                             ings and suggestions. In our view,
defraud depositors. Common                  to promote fairness and
                                                                             management’s response indicated
schemes range from identity                 inclusion in the delivery of
                                                                             a willingness and commitment
fraud to Internet scams such as             products and services to
                                                                             to devote sufficient resources
“phishing” and “pharming.”                  consumers and communities.
                                                                             and improve processes associ-
The misuse of the FDIC’s name or          •	Conduct investigations           ated with carrying out the Home
logo has also been identified as            of fraudulent representa-        Mortgage Disclosure Act outlier
a scheme to defraud depositors.             tions of FDIC affiliation or     program, conducting fair lending
Such misrepresentations have                insurance that negatively        examinations, and pursuing
led depositors to invest on the             impact public confidence         related enforcement actions.
strength of FDIC insurance while            in the banking system.
misleading them as to the true                                               Office of Investigations Works
nature of the investment products                                            to Curtail Misrepresentation of
being offered. These depositors
                                        OIG Work in Support                  FDIC Insurance or Affiliation and
have lost millions of dollars in        of Goal 3                            Identity Theft Schemes
the schemes. The OIG has been a         During the reporting period,         Unscrupulous individuals some-
strong proponent of legislation to      at the Chairman’s request, our       times attempt to misuse the FDIC’s
address such misrepresentations.        evaluations group conducted          name, logo, abbreviation, or other
We are pleased that the Emer-           work in the area of enforcement      indicators to suggest that deposits
gency Economic Stabilization Act        actions for compliance violations.   or other products are fully insured.
of 2008, signed by the former Pres-     Investigative work related to        Such misrepresentations induce
ident on October 3, 2008 contains       protection of personal informa-      the targets of schemes to trust
provisions that address this issue.     tion also supported this strategic   in the strength of FDIC insur-
Investigative work related to such      goal area during the reporting       ance while misleading them as to
fraudulent schemes is ongoing           period, as described below.          the true nature of the insurance
and will continue. With the help                                             investments being offered. Abuses
of sophisticated technology, the        Enforcement Actions for Compli-      of this nature harm consumers
OIG continues to work with FDIC         ance Violations                      and can also erode public confi-
divisions and other federal agen-       We conducted an evaluation at        dence in federal deposit insur-
cies to help with the detection of      the request of the FDIC Chairman     ance. Our Office of Investigations
new fraud patterns and combat           to determine: to what extent the     works to counteract these abuses
existing fraud. Coordinating            FDIC issues formal enforcement       and also partners with others
closely with the Corporation            actions to address certain compli-   to pursue cases of this type.
and the various U.S. Attorneys’         ance violations and deficien-
Offices, the OIG will help to sustain                                        Identity theft also continues to
                                        cies; the factors, conditions,       become more sophisticated,
public confidence in federal            and circumstances involved in
deposit insurance and goodwill                                               and the number of victims is
                                        determining whether and what         growing. Identity theft includes
within financial institutions.          type of enforcement action is        using the Internet for crimes
To assist the FDIC to protect           initiated; and the efficiency of     such as “phishing” emails and
consumer rights and ensure              the FDIC’s process for initiating,   “pharming” Web sites that attempt
customer data security and              reviewing, and issuing formal        to trick people into divulging
26
their private financial informa-
tion. Schemers pretend to be
legitimate businesses or govern-
ment entities with a need for the
information that is requested.
The OIG’s Electronic Crimes
Unit (ECU) responds to scams
involving the FDIC and the OIG.

Electronic Crimes Unit Success
During the reporting period,
the ECU responded to allega-
tions of fraudulent email and
facsimiles that represented
they were from the FDIC. The
ECU had 14 fraudulent email
accounts and 6 fraudulent
facsimile numbers deactivated.
The ECU responded to eight
bank closings. At these closings,
ECU agents collected electronic
evidence from 50 computers.
The ECU also collected electronic
evidence related to network
files and email accounts. This
electronic evidence was later
analyzed and provided to FDIC
OIG agents working fraud cases
related to the failed financial
institutions. (See also a write-up of
the ECU’s work involving a “White
Powder Mailing Case” in the
section on Goal 5 in this report.)




                                        27
     4                                  Strategic Goal 4:
                                        The OIG Will Help Ensure that
                                        the FDIC is Ready to Resolve
                                        Failed Banks and Effectively
                                        Manages Receiverships




T
The FDIC protects depositors
of insured banks and savings
associations. In the FDIC’s history,
no depositor has experienced a
loss on the insured amount of his
or her deposit in an FDIC-insured
institution due to a failure. One
of the FDIC’s most important
                                           failed bank; liquidating any
                                           remaining assets; and distrib-
                                           uting any proceeds to the
                                           FDIC, the bank customers,
                                           general creditors, and those
                                           with approved claims.
                                        The FDIC’s resolution and receiver-
                                        ship activities pose tremendous
                                                                                 While OIG audits and evaluations
                                                                                 address various aspects of reso-
                                                                                 lution and receivership activi-
                                                                                 ties, OIG investigations benefit
                                                                                 the Corporation in other ways.
                                                                                 That is, in the case of bank clos-
                                                                                 ings where fraud is suspected,
                                                                                 our Office of Investigations (OI)
roles is acting as the receiver                                                  sends case agents and computer
                                        challenges. As indicated by the
or liquidating agent for failed                                                  forensic special agents from the
                                        trends in mergers and acquisi-
FDIC-insured institutions. The                                                   ECU to the institution. ECU agents
                                        tions, banks have become more
success of the FDIC’s efforts in                                                 use special investigative tools to
                                        complex, and the industry is
resolving troubled institutions has                                              provide computer forensic support
                                        consolidating into larger organi-
a direct impact on the banking                                                   to OI’s investigations by obtaining,
                                        zations. As a result, the FDIC has
industry and on the taxpayers.                                                   preserving, and later examining
                                        been called upon to handle failing
DRR’s responsibilities include                                                   evidence from computers at the
                                        institutions with significantly larger
planning and efficiently handling                                                bank. As referenced earlier, during
                                        numbers of insured deposits than
the resolutions of failing FDIC-                                                 the reporting period, OI attended
                                        it has had to deal with in the past.
insured institutions and providing                                               eight bank closings and provided
prompt, responsive, and efficient       During 2008, 25 FDIC-insured             forensics support for those.
administration of failing and           institutions failed, with total assets
                                                                                 The OIG also coordinates closely
failed financial institutions in        at failure of $361.3 billion and total
                                                                                 with DRR on concealment of assets
order to maintain confidence and        losses to the DIF of about $17.9
                                                                                 cases. In many instances, the FDIC
stability in our financial system.      billion. During the first 4 months
                                                                                 debtors do not have the means
                                        of 2009, another 29 institutions
  •	The resolution process                                                       to pay fines or restitution owed to
                                        have failed, with total assets at
    involves valuing a failing feder-                                            the Corporation. However, some
                                        failure of $14.7 billion and an
    ally insured depository institu-                                             individuals do have the means
                                        estimated loss to the DIF of about
    tion, marketing it, soliciting                                               to pay but hide their assets and/
                                        $3.9 billion. To meet the workload
    and accepting bids for the sale                                              or lie about their ability to pay.
                                        demands associated with these
    of the institution, considering                                              OI works closely with both DRR
                                        and future failures, DRR has been
    the least costly resolution                                                  and the Legal Division in aggres-
                                        authorized to hire both perma-
    method, determining which                                                    sively pursuing criminal inves-
                                        nent and temporary employees.
    bid to accept, and working                                                   tigations of these individuals.
                                        DRR is also taking advantage of
    with the acquiring institution      the Corporation’s cross-training to      To help ensure the FDIC is ready
    through the closing process.        create a flexible workforce where        to resolve failed banks and
  •	The receivership process            examiners can support resolution         effectively manages receiver-
    involves performing the             activities, and resolution specialists   ships, the OIG’s 2009 perfor-
    closing function at the             can support examination activities.      mance goals are as follows:
28
  •	Evaluate the FDIC’s plans           Loan Modification Programs.            the FDIC became aware of the
    and systems for managing            The FDIC implemented a Loan            IndyMac problem; what the Corpo-
    bank resolutions.                   Modification Program at IndyMac        ration knew and how it knew it;
                                        Federal Bank, FSB, and the imple-      and what actions the Corpora-
  •	Investigate crimes involved in
                                        mentation of a similar program has     tion took given its knowledge
    or contributing to the failure of
                                        been a condition of several large      of the risks posed by IndyMac.
    financial institutions or which
    lessen or otherwise affect          FDIC-facilitated institution sales.    WaMu was the largest bank
    recoveries by the DIF, involving    The goal of these programs was         failure in the history of the United
    restitution or otherwise.           to achieve affordable and sustain-     States, but because the resolution
                                        able mortgage payments for             structure resulted in no loss to the
                                        borrowers and increase the value       Fund, the threshold for conducting
OIG Work in Support                     of distressed mortgages by reha-       an MLR was not triggered. Given
of Goal 4                               bilitating them into performing        the size, the circumstances
During the reporting period, the        loans. Other institutions have         leading up to the resolution, and
OIG planned a number of new             agreed to implement loan               the non-Fund losses (i.e., loss
assignments in this goal area,          modification programs as part          of shareholder value), we are
largely in response to events           of their financial stability agree-    working jointly with the Depart-
involving resolution and receiver-      ments with the FDIC and other          ment of the Treasury OIG to
ship of institutions. These efforts     financial regulatory agencies.         determine the events leading to
are briefly discussed below:            We will be assessing the FDIC’s        the need for the FDIC-facilitated
                                        efforts for monitoring imple-          transaction. We plan to evaluate
Planned Work Focuses on New             mentation of loan modification         the Office of Thrift Supervision’s
Resolution and Receivership             programs at institutions such as       supervision of WaMu, including
Challenges                              CitiBank and US Bank. We will          implementation of PCA provi-
                                        also be looking at the former          sions of section 38, if required;
The resolution and receiver-
                                                                               evaluate the FDIC’s supervision
ship activity is a vulnerable area      IndyMac program to evaluate the
                                                                               and monitoring of WaMu in its role
where independent oversight             controls to detect and prevent
                                                                               as insurer; and assess the FDIC’s
and review are essential. We are,       participation in the program by
                                                                               resolution process for WaMu.
at present, planning to undertake       those who obtained their initial
two evaluations in areas where          loan under fraudulent pretenses.       Results of this work will be
we believe FDIC has the most                                                   presented in upcoming
                                        Large Bank Failures. The fail-
exposure. One evaluation will                                                  semiannual reports.
                                        ures of IndyMac and Washington
identify and evaluate controls in       Mutual Bank (WaMu) were historic,
place over the contracting and          each for their own reasons. As
legal services functions to address     such, we believed that an inde-
the risks presented by a signifi-       pendent analysis of the activities
cant increase in resolution and         of the regulators involved is in the
receivership-related contracting        public’s best interest. IndyMac’s
activity. A second evaluation will      failure in July 2008 was the third
cover the loss share provisions,        largest in the history of the United
including those in the assistance       States. Because this institution was
agreements with Citigroup               supervised by the Office of Thrift
and Bank of America, to ensure          Supervision, the Inspector General
compliance with all related terms,      at the Department of the Treasury
such as those involving asset           conducted the MLR. However,
eligibility and institution manage-     we believe it important to deter-
ment of guaranteed assets.              mine the role the FDIC played as
Other areas that will receive           back-up regulator and deposit
attention are as follows:               insurer. We are determining when
                                                                                                                29
     5                                Strategic Goal 5:
                                      The OIG Will Promote Sound
                                      Governance and Effective
                                      Stewardship and Security
                                      of Human, Financial, IT,
                                      and Physical Resources




T
The FDIC must effectively manage
and utilize a number of critical
strategic resources in order to
carry out its mission successfully,
particularly its human, financial,
IT, and physical resources.
Human Resources: The FDIC’s
authorized staffing for 2009 is
                                       that challenge. Further, the FDIC
                                       has established a process for
                                       conducting privacy impact assess-
                                       ments of its information systems
                                       containing personally identifiable
                                       information that is consistent
                                       with relevant privacy-related
                                       policy, guidance, and standards.
                                                                               budgets approved by the Board
                                                                               of Directors for major investment
                                                                               projects. Budgets for invest-
                                                                               ment projects are approved on a
                                                                               multi-year basis, and funds for an
                                                                               approved project may be carried
                                                                               over from year to year until the
                                                                               project is completed. Expenditures
6,269, an increase of 1,459 posi-      Financial Resources: The                from the Corporate Operating
tions from 2008, principally due to    Corporation does not receive            and Investment Budgets are paid
the need to address greater receiv-    an annual appropriation, except         from two funds managed by the
ership and resolution activity and     for its OIG, but rather is funded       FDIC—the DIF and the Federal
the elevated examination work-         by the premiums that banks              Savings and Loan Insurance
load. Most of the increase is for      and thrift institutions pay for         Corporation Resolution Fund.
hiring non-permanent employees         deposit insurance coverage, the         IT Resources: At the FDIC, the
to aid in the current crisis.          sale of assets recovered from           Corporation seeks to leverage
                                       failed banks and thrifts, and           IT to support its business goals
Supplementing the FDIC work-
                                       from earnings on investments            in insurance, supervision and
force are contractors providing
                                       in U.S. Treasury securities.            consumer protection, and receiv-
services for the Corporation. The
FDIC awarded approximately             The FDIC Board of Directors             ership management, and to
$652 million in contracts during       approves an annual Corporate            improve the operational effi-
2008. As a good steward, the           Operating Budget to fund the            ciency of its business processes.
FDIC must ensure it receives the       operations of the Corporation. For      The FDIC needs to continue to
goods and services purchased           2009, the approved budget totaled       focus on the capital planning and
with corporate funds and have          $2.4 billion, an increase of $1.03      investment processes for IT and
effective contractor oversight         billion from 2008. The operating        maximize the effectiveness of the
controls in place as well.             budget provides resources for           Chief Information Officer Council
                                       the operations of the Corpora-          and Project Management Office,
In an age of identity theft risks,
                                       tion’s three major programs             both of which play an important
an important human capital
                                       or business lines—Insurance,            role in reviewing the portfolio of
management responsibility at
                                       Supervision, and Receivership           approved IT projects and other
the FDIC is to maintain effec-
                                       Management—as well as its major         initiatives. The Corporation has
tive controls to protect personal
                                       program support functions (legal,       also worked to enhance its Enter-
employee-related information
                                       administrative, financial, IT, etc.).   prise Architecture program by
that the Corporation possesses.
The appointment of a chief             In addition to the Corporate            identifying duplicative resources/
privacy officer and implementa-        Operating Budget, the FDIC has a        investments and opportunities for
tion of a privacy program have         separate Investment Budget that         internal and external collaboration
been positive steps in addressing      is composed of individual project       to promote operational improve-
30
ments and cost-effective solu-          managed by a five-person Board            •	Promote IT security measures
tions to business requirements.         of Directors, all of whom are               that ensure the confidenti-
Along with the positive benefits        appointed by the President and              ality, integrity, and availability
that IT offers comes a certain          confirmed by the Senate, with no            of corporate information.
degree of risk. In that regard,         more than three being from the            •	Promote personnel and
information security has been           same political party. The Board             physical security.
a long-standing and widely              includes the Comptroller of the
                                        Currency and the Director of the          •	Promote sound corporate
acknowledged concern among
                                        Office of Thrift Supervision. Given         governance and effec-
federal agencies. The Federal Infor-
                                        the relatively frequent changes             tive risk management and
mation Security Management Act
                                        in the Board make-up, it is essen-          internal control efforts.
requires each agency to develop,
document, and implement an              tial that strong and sustainable
agency-wide information security        governance and communication            OIG Work in Support
                                        processes are in place throughout
program to provide adequate                                                     of Goal 5
security for the information and        the FDIC and that Board members
                                        possess and share the informa-          The OIG committed a number of
information systems that support
                                        tion needed at all times to under-      audit and evaluation resources
the operations and assets of the
                                        stand existing and emerging             to work in this strategic goal area
agency. Section 522 of the Consoli-
                                        risks and make sound policy             during the reporting period. One
dated Appropriations Act of 2005
                                        and management decisions.               of our evaluations examined
requires agencies to establish and
                                                                                the FDIC’s Corporate Employee
implement comprehensive privacy         Enterprise risk management is a
                                                                                Program. We also performed an
and data protection procedures          key component of governance.
                                                                                audit of follow-up actions taken
and have periodic third-party           The FDIC’s numerous enterprise
                                                                                related to the FDIC’s controls over
reviews performed of their              risk management activities need
                                                                                the confidentiality of sensitive
privacy programs and practices.         to consistently identify, analyze,
                                                                                email communications. Other
Physical Resources: The FDIC            and mitigate operational risks
                                                                                evaluations this period focused on
currently employs approximately         on an integrated, corporate-
                                                                                two security areas: mail handling
4,900 people. It is headquartered       wide basis. Additionally, such
                                                                                and screening procedures at
in Washington, D.C., but conducts       risks need to be communicated
                                                                                FDIC facilities and guard services
much of its business in six             throughout the Corporation and
                                                                                provided to protect FDIC build-
regional offices and in field offices   the relationship between internal
                                                                                ings and people. Additionally,
throughout the United States.           and external risks and related
                                                                                we audited oversight manage-
Ensuring the safety and security of     risk mitigation activities should
                                                                                ment of the FDIC’s contract
the human and physical resources        be understood by all involved.
                                                                                with ARAMARK. Results of these
in those offices is a fundamental       To promote sound governance             reviews are discussed below.
corporate responsibility that           and effective stewardship and
is directly tied to the Corpora-        security of human, financial, IT, and   Evaluation of the FDIC’s
tion’s successful accomplishment        physical resources, the OIG’s 2009      Corporate Employee Program
of its mission. The FDIC needs          performance goals are as follows:       In 2005, the FDIC initiated the
to be sure that its emergency                                                   Corporate Employee Program
                                          •	Evaluate corporate efforts to
response plans provide for the                                                  (CEP) to respond to the growing
                                            manage human resources
safety and physical security of                                                 consolidation and complexity
                                            and operations efficiently,
its personnel and ensure that its                                               within the financial services
                                            effectively, and economically.
business continuity planning and
                                                                                industry. The CEP is intended
disaster recovery capability keep         •	Promote integrity in FDIC
                                                                                to: (1) provide opportunities for
critical business functions opera-          internal operations.
                                                                                FDIC employees at all levels to
tional during any emergency.
                                          •	Promote alignment of IT             identify, develop, and apply skills
Corporate Governance and                    with the FDIC’s business            in multiple corporate functions
Risk Management: The FDIC is                goals and objectives.               through various training oppor-
                                                                                                                     31
tunities and cross-divisional work       ists’ efforts—an indication of the     the five issues. The Director, DIT,
assignments and (2) create a work-       program’s positive impact to date.     also separately requested that
force that possesses a common                                                   the OIG assess DIT’s efforts to use
                                         We made six recommenda-
corporate perspective and is                                                    content filtering technology for
                                         tions for incremental program
capable of responding rapidly to                                                corporate email communications.
                                         improvement as the Corporation
shifting priorities and changes in                                              In response to these requests,
                                         continues to refine its program
workload. The FDIC’s Corporate                                                  the OIG contracted with KPMG
                                         related to enhancing and final-
University manages the CEP.                                                     LLP (KPMG) to audit these areas.
                                         izing CEP draft policy, establishing




         T
Our objective was to assess              performance goals, improving           KPMG found that the control
the FDIC’s efforts to imple-             how CEP costs are identified and       improvements described in the
ment the CEP by determining:             measured, developing a system          DIT memorandum were adequate,
(1) the number of employees              for tracking deployments and           fully implemented, and generally
participating and the degree to          continuing education, ensuring         operating as intended. Although
which they have completed the            that employees retain and utilize      KPMG’s work identified the need
program, (2) whether the CEP             the knowledge they have gained         for additional control improve-
has stated measurements for              through the CEP, and clarifying        ments to fully address the five
gauging program effectiveness,           plans for expanding the program.       email security issues contained in
(3) participant and manage-              Management concurred with              the DIT memorandum, DIT took
ment views on the benefits and           five of the recommendations            prompt action to implement these
success of the program, and (4)          and agreed with the intent of          additional control improvements
the extent to which the CEP has          the remaining recommendation.          prior to the close of the audit.
produced cross-trained employees         Management plans to implement          DIT had also completed a pilot
capable of responding to changes         corrective actions sufficient to       implementation of email content
in examination or resolution             address each recommendation.           filtering technology. However, DIT
and receivership priorities.                                                    temporarily discontinued the use
                                         Control Improvements Under-            of the email content filtering prior
We reported that the FDIC has            taken by the Division of Informa-      to the start of the audit. Based
made progress toward imple-              tion Technology to Ensure the          on concerns that KPMG raised
menting the CEP, particularly            Confidentiality of Sensitive Email     during the audit, DIT developed
with respect to hiring employees         Communications                         a formal policy and configuration
and cross training them through
                                         The FDIC uses email extensively        management plan to govern email
certificate and commissioning
                                         to exchange business informa-          content filtering at the FDIC.
programs. Corporate University
has also drafted guidelines and          tion internally and externally. The    KPMG recommended that the
procedures for the program and           National Institute of Standards        Director, DIT, implement content
provided program results to              and Technology recommends              filtering technology on corporate
key stakeholders. Most financial         that organizations consider the        email to mitigate the risk of loss
institution specialists are pleased      use of email content filtering         of sensitive business data consis-
with the CEP, and FDIC manage-           technology to mitigate the risk of     tent with National Institute of
ment generally had positive views        loss of sensitive business data.       Standards and Technology-recom-
regarding the program. Further,          On October 6, 2008, the Director       mended practices and the FDIC’s
Corporate University has been            of the FDIC’s Division of Informa-     policies and procedures. Manage-
responsive to concerns or requests       tion Technology (DIT) issued           ment concurred with our recom-
for changes to the CEP. The FDIC         a memorandum to the FDIC               mendation and plans to take
has deployed a number of finan-          Chairman, summarizing the              responsive actions, subject to the
cial institution specialists and         status of control improvements         concurrence of the FDIC Chairman.
certificate holders to assist with an    intended to address five specific
increase in resolution activity, and     email security issues. The Director,
DRR staff have been complimen-           DIT, requested the FDIC OIG to
tary of financial institution special-   assess DIT’s actions to address
32
Evaluation of the FDIC’s Security        facility opposite the FDIC’s                         tracking and delivery
Controls over Mail Handling and          Virginia Square facility,                            management system at two
Mail Screening Processes at FDIC                                                              of six facilities visited,
                                        •	disciplined implementation
Facilities
                                          of established mail handling                       •	routine and frequent
The FDIC receives mail from a             security controls at certain                         training sessions for mail
variety of sources in the Wash-           regional offices that were                           security staff, and
ington, D.C. area at two locations;       closely aligned with recom-
regional and area offices in Atlanta,                                                        •	mail processing personnel as
                                          mended security controls,
Boston, Chicago, Dallas, Kansas                                                                well as their supervisors and
City, Memphis, New York, and San        •	nationwide contracts for                             managers displayed a positive
Francisco; and at 76 field offices.       screening and processing                             work attitude and an earnest
In October 2008, the FDIC’s Virginia      mail to enhance manage-                              desire to do good work.
Square facility received a threat-        ment’s ability to control
                                                                                          Further, both before and after
ening letter containing a white,          quality and manage change
                                                                                          the October 2008 incidents, the
powdery substance. In subsequent          across the organization,
                                                                                          FDIC took action to improve
days, the FDIC received similar         •	utilization of a package                        safe mailing practices.
threatening letters at its Dallas and
Washington, D.C. facilities. While
the white powder was determined
to be harmless, three of the six        Guilty Plea in White Powder Mailing Case
threatening letters, addressed to       On March 16, 2009, in the U.S. District Court for the Northern
FDIC executives, were not detected      District of Texas, Amarillo Division, an individual entered a guilty
by the FDIC’s mail screening            plea to 2 counts of a 65-count indictment that charged him with
procedures prior to delivery.           Making Threats and False Information, and Threats and Hoaxes.
Following these incidents, FDIC         On or about October 18, 2008, the defendant mailed 65 threatening
management requested that the           letters, of which 64 contained harmless white powder, to various
FDIC OIG evaluate the FDIC’s mail       branches of J.P. Morgan Chase, the Office of Thrift Supervision, and
handling and screening proce-           to the FDIC. The last envelope contained the threatening letter, but
dures. We contracted with KPMG          no powder. All of the letters were postmarked from Amarillo, Texas.
to perform the evaluation. KPMG
                                        The OIG Electronic Crimes Unit (ECU) coordinated with other FDIC
evaluated the mail handling and
                                        divisions and collected evidence relating to the case. Specifically,
screening operations at the FDIC’s
                                        the ECU worked with DIT to collect a summary of Internet traffic
Washington, D.C. headquar-
                                        to the fdic.gov Web site for the period of September 24, 2008 to
ters buildings and the Atlanta,
                                        October 19, 2008. The summary consisted of Internet Protocol (IP)
Dallas, Kansas City, and San
                                        addresses for individuals connecting to the Web site. Additionally,
Francisco Regional Offices during
                                        the ECU contacted various FDIC divisions, such as DSC, DRR, Office
November and December 2008.
                                        of the Ombudsman, the Chairman’s Office, and the OIG Hotline to
KPMG found that the FDIC has            collect any complaints relating to the FDIC’s appointment as receiver
established mail handling and           of a certain closed Office of Thrift Supervision-regulated institu-
screening centers, procedures,          tion. The ECU collected all complaint information in email, letter, or
and measures that are gener-            telephone call form and passed it along to the case agents. Later,
ally consistent with published          when the FBI developed a specific IP address of interest, the ECU
federal guidelines. Further, KPMG’s     coordinated with DIT to determine whether the IP address had
examination of the FDIC’s mail          accessed fdic.gov on a specific date. DIT found the IP address on
screening and handling prac-            the date in question. The information was included in the search
tices identified several strengths.     warrant application and the complaint against the subject.
Such strengths included:                Source: FDIC Division of Administration. Responsible Agencies: FBI and FDIC OIG. Pros-
                                        ecuted by the U.S. Attorney’s Office for the Northern District of Texas, Amarillo Division
  •	use of a remote screening

                                                                                                                                     33
KPMG did find, however, oppor-         consistent with contract cost          achieve these potential savings
tunities for improvement that          and performance expectations           because of the costs involved
would better protect the health        and is meeting the contract’s          in mitigating any increased
and safety of FDIC employees           objective of protecting FDIC           risk that results from imple-
and the continuity of its busi-        employees and FDIC property.           menting the recommendation.
ness operations and made               Based on our observations, the
eight recommendations to               contract security guards were          Oversight Management of the
that effect. FDIC management           generally attentive and acted          Contract with the ARAMARK
concurred or partially concurred       in a professional and courteous        Corporation
with each recommenda-                  manner. We also concluded              In February 2007, the FDIC’s Divi-
tion and proposed corrective           that the FDIC had negotiated           sion of Administration awarded a
actions that were responsive           contract labor rates for guard         contract to the ARAMARK Corpo-
to the recommendations.                services that were lower than          ration (ARAMARK) to manage and
                                       most offered under the General         operate the Corporation’s Student
The FDIC’s Guard Services              Services Administration schedule.      Residence Center in Arlington,
Contract and Controls Over                                                    Virginia, and cafeterias in the
                                       Further, in 2007, the FDIC
Access to Facilities                                                          Virginia Square facility and head-
                                       procured an independent
Physical security of FDIC facili-      physical security assessment of        quarters building in Arlington and
ties is important to achieving the     its headquarters facilities. The       Washington, D.C., respectively.
Corporation’s mission. Recent          resulting Security Assessment          The contract, which has a ceiling
turmoil in the financial services      Report concluded that the FDIC         price of approximately $51 million
industry and the FDIC’s increasing     had implemented a well-planned         and a term of 10 years (including
role in resolving the banking crises   security program. The assessment       option periods), is one of the
heighten the need to ensure that       also made a number of recom-           FDIC’s highest-dollar contracts.
FDIC employees and facilities are      mendations related to physical         We completed an audit to
adequately protected. The FDIC         security procedures and staffing.      assess key oversight manage-
relies on private sector guard         We determined that the FDIC had        ment controls pertaining to the
services at headquarters and           addressed or was studying several      FDIC’s contract with ARAMARK
regional office locations to protect   of those recommendations.              and focused on assessing 11 key
FDIC employees, property, and the                                             controls designed to ensure that
                                       We identified several areas where
general public. In January 2006,                                              ARAMARK complies with the terms
                                       the FDIC could further strengthen
the FDIC consolidated security                                                and conditions of its contract with
                                       security or could reduce guard
guard services into a single                                                  the FDIC. The 11 controls pertain
                                       services cost without sacrificing
contract. In November 2007, the                                               to contractor personnel quali-
                                       security and made five recom-
FDIC awarded a 7-year, $74.6                                                  fications, contractor insurance
                                       mendations for management’s
million guard services contract                                               coverage, FDIC-furnished equip-
                                       consideration. Management
to provide nationwide physical                                                ment, internal contractor audits,
                                       concurred or partially concurred
security services. During the                                                 invoice review and approval,
                                       with 4 of the 5 recommendations
reporting period, we performed                                                accounting for contractor cash
                                       and offered an acceptable expla-
an evaluation to assess the extent                                            receipts, emergency prepared-
                                       nation for not concurring with the
to which the Corporation has                                                  ness, evaluating contractor
                                       one remaining recommendation.
administered guard services in                                                performance, quality assurance,
                                       We are including a range of $2.1
a manner that balances secu-                                                  monitoring and inspection of
                                       million to $5.2 million as funds put
rity needs and efficiency and                                                 contractor performance, and
                                       to better use in this Semiannual
implemented adequate controls                                                 contract management planning.
                                       Report to the Congress associ-
over access to FDIC facilities.
                                       ated with one recommendation           We found that the FDIC has
We reported that the FDIC is           to improve the efficiency of guard     established controls to help ensure
administering its nationwide           services. However, management          proper oversight management
security guard services contract       indicated that it may not fully        of its contract with ARAMARK
34
in all but 1 of the 11 oversight
management areas that we
assessed (contractor personnel
qualifications). However, the
FDIC’s implementation of controls
needed improvement in 9 of
the 11 areas that we assessed.
Of particular note, the FDIC had
not obtained a physical inven-
tory of FDIC-furnished equip-
ment including small wares (e.g.,
glassware, tableware, and flat-
ware) for the cafeterias covered
under the contract. The FDIC had
also not identified emergency
response and continual-use
requirements pertaining to the
Student Residence Center and
cafeterias operated by ARAMARK.
In addition, although the FDIC
reviews ARAMARK’s invoices and
supporting documentation for
accuracy, reasonableness, and
compliance with the terms of the
contract, charges on the invoices
were not traced (on a sample
basis) to original documenta-
tion. We made recommendations
to address these concerns.
The FDIC took responsive actions
to address the recommendations
related to personnel qualifications
and amendments to the Contract
Management Plan prior to the issu-
ance of our report. The FDIC was
in the process of taking responsive
action to address the recommen-
dation related to the emergency
response and continual-use
requirements for the Student
Residence Center and cafeterias
at the time we issued our report.




                                      35
     6                                 Strategic Goal 6:
                                       OIG Internal Processes:
                                       Build and Sustain a High-Quality
                                       Staff, Effective Operations, OIG
                                       Independence, and Mutually
                                       Beneficial Working Relationships




W
While the OIG’s audit, evalua-
tion, and investigation work is
focused principally on the FDIC’s
programs and operations, we have
an obligation to hold ourselves to
the highest standards of perfor-
mance and conduct. We seek to
develop and retain a high-quality
                                       tional impairments to their inde-
                                       pendence. The OIG adheres to the
                                       Quality Standards for Federal Offices
                                       of Inspector General, issued by
                                       the former President’s Council on
                                       Integrity and Efficiency (PCIE) and
                                       the Executive Council on Integrity
                                       and Efficiency (ECIE), combined in
                                                                               occur throughout the year as
                                                                               OIG officials meet with division
                                                                               and office leaders and attend
                                                                               and participate in internal FDIC
                                                                               conferences and other forums.
                                                                               The OIG also places a high
                                                                               priority on maintaining positive
                                                                               relationships with the Congress
staff, effective operations, OIG       a single Council of the Inspectors      and providing timely, complete,
independence, and mutually             General on Integrity and Efficiency     and high-quality responses to
beneficial working relation-           (CIGIE) with passage of the IG          congressional inquiries. In most
ships with all stakeholders.           Reform Act on October 14, 2008.         instances, this communication
To ensure a high-quality staff,        Further, the OIG conducts its audit     would include semiannual reports
we must continuously invest in         work in accordance with generally       to the Congress, issued audit and
keeping staff knowledge and            accepted Government Auditing            evaluation reports, information
skills at a level equal to the work    Standards; its evaluations in accor-    related to completed investiga-
that needs to be done, and we          dance with PCIE Quality Standards       tions, comments on legislation
emphasize and support training         for Inspections; and its investiga-     and regulations, written state-
and development opportunities          tions, which often involve allega-      ments for congressional hear-
for all OIG staff. We also strive to   tions of serious wrongdoing that        ings, contacts with congressional
keep communication channels            may involve potential violations        staff, responses to congressional
open throughout the office. We         of criminal law, in accordance with     correspondence, and materials
are mindful of ensuring effec-         Quality Standards for Investiga-        related to OIG appropriations.
tive and efficient use of human,       tions established by the PCIE and
                                                                               We have fully supported and
financial, IT, and procurement         ECIE, and procedures established
                                                                               participated in CIGIE activities and
resources in conducting OIG            by the Department of Justice.
                                                                               coordinate closely with represen-
audits, evaluations, investiga-        Strong working relationships are        tatives from the other financial
tions, and other support activities,   fundamental to our success. We          regulatory OIGs. Additionally, the
and have a disciplined budget          place a high priority on main-          OIG meets with representatives
process to see to that end.            taining positive working relation-      of the U.S. Government Account-
To carry out our responsibilities,     ships with the FDIC Chairman,           ability Office to coordinate work
the OIG must be professional,          Vice Chairman, other FDIC Board         and minimize duplication of
independent, objective, fact-          members, and management                 effort and with representatives
based, nonpartisan, fair, and          officials. The OIG is a regular         of the Department of Justice,
balanced in all its work. Also, the    participant at Audit Committee          including the FBI and U.S. Attor-
IG and OIG staff must be free both     meetings where recently issued          neys’ Offices, to coordinate our
in fact and in appearance from         audit and evaluation reports            criminal investigative work and
personal, external, and organiza-      are discussed. Other meetings           pursue matters of mutual interest.
36
The FDIC OIG has its own strategic     The OIG strongly supports GPRA            •	Effectively and efficiently
and annual planning processes,         and is fully committed to applying          manage OIG human, financial,
independent of the Corporation’s       its principles of strategic planning        IT, and physical resources
planning process, in keeping with      and performance measurement
the independent nature of the          and reporting to our operations.          •	Ensure quality and efficiency
OIG’s core mission. The Govern-        The OIG’s Business Plan lays the            of OIG audits, evaluations,
ment Performance and Results           basic foundation for establishing           investigations, and other
Act of 1993 (GPRA) was enacted         goals, measuring performance,               projects and operations
to improve the management,             and reporting accomplishments,            •	Encourage individual growth
effectiveness, and accountability      consistent with the principles
                                                                                   and strengthen human capital
of federal programs. GPRA requires     and concepts of GPRA. We are
most federal agencies, including                                                   management and leadership
                                       continuously seeking to better
the FDIC, to develop a strategic                                                   through professional devel-
                                       integrate risk management
plan that broadly defines the          considerations in all aspects of            opment and training
agency’s mission and vision, an        OIG planning—both with respect            •	Foster good client, stake-
annual performance plan that           to external and internal work.              holder, and staff relationships
translates the vision and goals of
the strategic plan into measurable     To build and sustain a high-quality       •	Enhance OIG risk manage-
objectives, and an annual perfor-      staff, effective operations, OIG            ment activities
mance report that compares actual      independence, and mutually
                                       beneficial working relationships,       A brief listing of selected OIG
results against planned goals.
                                       the OIG’s 2009 performance              activities in support of these
                                       goals are as follows:                   performance goals follows.


            Effectively and Efficiently Manage OIG Human, Financial, IT, and Physical Resources
   1     Continued realignment of the OIG’s investigative resources with FDIC regions, by reassigning OI staff,
         and advertising and filling vacancies.
   2     Prepared informational materials outlining needed financial resources for presentation to the FDIC
         Chairman, Office of Management and Budget (OMB), and the House and Senate Appropriations
         Subcommittees in support of the OIG’s FY 2010 budget request.
   3     Completed an office-wide initiative focusing on protecting personally identifiable information and
         other sensitive data through the use of encryption of portable media devices and use of Entrust when
         sending sensitive email.
   4     Continued to partner with DIT to ensure the security of OIG information in the FDIC computer network
         infrastructure.




                                                                                                                     37
         Ensure Quality and Efficiency of OIG Audits, Evaluations, Investigations, and Other Projects
                                               and Operations
     1    Completed first annual quality monitoring review in Office of Audits, a new requirement under Gener-
          ally Accepted Government Auditing Standards, to summarize and analyze quality assurance activities
          completed in calendar year 2008.
     2    Conducted a quality assessment review addressing data reliability for calculating OIG audit costs in
          STAR, the OIG’s audit and evaluation tracking system.
     3    Continued to use a contract awarded to a qualified firm to provide audit and evaluation services to
          the OIG to enhance the quality of our work and the breadth of our expertise as we conduct audits and
          evaluations, and closely monitored contractor performance.
     4    Continued use of the OIG’s end-of-assignment feedback forms to provide staff with
          input on performance of individual audit and evaluation assignments, and use of the
          IG’s feedback form to assess time, cost, and value of audits and evaluations.
     5    Planned for the conduct of a peer review of the audit operations of the Department of Commerce OIG
          Office of Audit, as required by the CIGIE. Also spearheaded the IG community’s peer review training
          program for OIGs government-wide.
     6    Reported the results of the FDIC OIG peer review of the investigative operations of the Environmental
          Protection Agency OIG, as required by the former PCIE.




     Encourage Individual Growth and Strengthen Human Capital Management and Leadership Through
                                 Professional Development and Training
     1    Conducted a comprehensive Material Loss Review training program for FDIC OIG staff and staff from
          other financial regulatory OIGs to better equip participants with skills and expertise needed to meet
          demands of our collective increased material loss review workload.
     2    Continued to support members of the OIG attending long-term graduate banking school programs
          sponsored by Stonier, the Southeastern School of Banking at Vanderbilt University, and the Univer-
          sity of Wisconsin to enhance OIG staff expertise and knowledge of the banking industry.
     3    Employed college interns in the OIG to provide assistance to the Offices of Audits, Evaluations, and
          Investigations.




38
                     Foster Good Client, Stakeholder, and Staff Relationships
1   Maintained congressional working relationships by providing our Semiannual Report to the Congress
    for the 6 month period ending September 30, 2008; notifying interested congressional parties
    regarding the OIG’s completed audit and evaluation work; attending or monitoring FDIC-related hear-
    ings on issues of concern to various oversight committees; and coordinating with the Corporation’s
    Office of Legislative Affairs on issues of mutual interest.
2   Communicated with the FDIC Chairman, Vice Chairman, Director Curry, and other senior FDIC officials
    through the Inspector General’s regularly scheduled meetings with them and through other forums.
3   Participated in DSC regional meetings to provide general information regarding the OIG and
    OI case studies on bank frauds that are of importance to DSC and the banking industry.
4   Held quarterly meetings with FDIC Directors and other senior officials to keep them apprised of
    ongoing audit and evaluation reviews and results.
5   Kept DSC, DRR, the Legal Division, and other FDIC program offices informed of the status and results
    of our investigative work impacting their respective offices. This was accomplished by notifying FDIC
    program offices of recent actions in OIG cases and providing OI’s quarterly reports to DSC, DRR, the
    Legal Division, and the Chairman’s Office outlining activity and results in our cases involving closed and
    open banks, concealed assets, and restitution.
6   Participated at FDIC Audit Committee meetings to present the results of significant completed audits
    and evaluations for consideration by Committee members.
7   Reviewed 10 draft corporate policies on a range of topics, among those: FDIC Enterprise Data Manage-
    ment System; Access Control for Division of Information Technology Resources; Corporate Outreach
    Program; Use of Personal Digital Assistants; and Cell Phone and Cell Modem Assignments, Usage,
    Safeguards and Asset Management.
8   Supported the Inspector General community by having the IG serve as Chair of the CIGIE Audit
    Committee and coordinating the activities of that group; attending monthly CIGIE meetings and partic-
    ipating in Inspection & Evaluation Committee and Council of Counsels to the IGs meetings; providing
    audit, investigative, and counsel resource assistance to other OIGs; spearheading writing and publica-
    tion of the IG community’s annual report for 2008; and providing support to the Inspector General
    community’s investigative meetings and training activities.
9   Met regularly with representatives of the OIGs of the federal banking regulators (Board of Governors of
    the Federal Reserve System, Department of the Treasury, National Credit Union Administration, Securi-
    ties and Exchange Commission, Farm Credit Administration, Commodity Futures Trading Commission,
    Federal Housing Finance Agency, and Export-Import Bank) to discuss audit, evaluation, and investiga-
    tive matters of mutual interest and leverage knowledge and resources.




                                                                                                                 39
                                  Enhance OIG Risk Management Activities
     1   Held meetings to assess emerging issues and risk areas impacting the FDIC and the banking
         and financial services industry as a whole. Determined those assignments to include in our
         FY 2009 Business Plan.
     2   Participated regularly at corporate meetings of the National Risk Committee to monitor emerging risks
         at the Corporation and tailor OIG work accordingly.
     3   Provided OIG perspectives on risk of fraud at the FDIC to GAO. We did so in response to GAO’s respon-
         sibility under Statement of Auditing Standards No. 99, Consideration of Fraud in Financial Statement
         Audits.
     4   Provided the FDIC Chairman our 2008 assurance letter, under which the OIG provides assurance
         that the OIG has made a reasonable effort to meet the internal control requirements of the Federal
         Managers’ Financial Integrity Act, OMB A-123, and other key legislation.
     5   Provided the OIG’s assessment of the management and performance challenges facing the
         FDIC, in accordance with the Reports Consolidation Act of 2000. We identified the following
         broad areas of challenges: Restoring and Maintaining Public Confidence and Stability in the
         Financial System; Resolving Failed Institutions; Ensuring the Viability of the Deposit Insurance
         Fund; Ensuring Institution Safety and Soundness Through an Effective Examination and Super-
         vision Program; Protecting and Educating Consumers and Ensuring an Effective Compliance
         Program; Effectively Managing the FDIC Workforce and Other Corporate Resources. Management
         included a detailed write-up of the challenges in its performance and accountability report.




40
Cumulative Results (2-year period)

                   Nonmonetary Recommendations
 April 2007 - September 2007                                                             7
 October 2007 - March 2008                                                              52
 April 2008 - September 2008                                                            24
 October 2008 - March 2009                                                              28




Products Issued and Investigations Closed
                                                                                             40
L E G E N D                                                            39
                                                                                             35
•   4/07 - 9/07                                                                              30
•   10/07 - 3/08                                                                             25
                                                                  23               24
•   4/08 - 9/08                                                                              20
•   10/08 - 3/09                                                                             15
                                  15   15     14                              14
                             12
                                                                                             10
                                                                                              5
                                                                                              0

                                Audits &                          Investigations
                               Evaluations



Fines, Restitution, and Monetary Recoveries
Resulting from OIG Investigations (in millions)

L E G E N D                                               352.9
                                                                                             400

•   4/07 - 9/07                                                                              300
•   10/07 - 3/08
•   4/08 - 9/08                                                                              200
•   10/08 - 3/09                                   86.9
                                                                       54.9                  100
                                       40.7

                                                                                                  0




                                                                                                      41
     Reporting Requirements
     Index of Reporting Requirements – Inspector
     General Act of 1978, as amended


     Reporting Requirements                                                                                       Page

     Section 4(a)(2): Review of legislation and regulations                                                         43

     Section 5(a)(1): Significant problems, abuses, and deficiencies                                              9-35

     Section 5(a)(2): Recommendations with respect to significant problems, abuses, and deficiencies              9-35

     Section 5(a)(3): Recommendations described in previous semiannual reports on which corrective
                                                                                                                    43
     action has not been completed

     Section 5(a)(4): Matters referred to prosecutive authorities                                                    8

     Section 5(a)(5) and 6(b)(2): Summary of instances where requested information was refused                      48

     Section 5(a)(6): Listing of audit reports                                                                      45

     Section 5(a)(7): Summary of particularly significant reports                                                 9-35

     Section 5(a)(8): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                    46
     questioned costs*

     Section 5(a)(9): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                    47
     recommendations that funds be put to better use*

     Section 5(a)(10): Audit recommendations more than 6 months old for which no management decision
                                                                                                                    48
     has been made

     Section 5(a)(11): Significant revised management decisions during the current reporting period                 48

     Section 5(a)(12): Significant management decisions with which the OIG disagreed                                48

     * Evaluation report statistics are shown on pages 47 and 48, in accordance with the IG Reform Act of 2008.




42
Information Required by the
Inspector General Act of 1978,
as Amended

Review of Legislation and Regulations
It is the responsibility of the OIG Office of Counsel to review, pursuant to Section 4(a) of the Inspector General
Act, pending and enacted legislation and regulations relating to programs and operations of the FDIC. In
this regard, Counsel’s Office has continued to monitor the status of various bills relating to the tumultuous
landscape of the financial industry as well as legislation pertaining to the Inspector General community
at large. Counsel reviewed H.R. 1349, the Federal Accounting Standards Board Act of 2009; H.R. 1264, the
Multiple Peril Insurance Act of 2009; H.R. 478, the Federal Agency Performance Review and Efficiency Act;
H.R. 885, the Improved Financial and Commodity Markets Oversight and Accountability Act; H.R. 216,
the Government Credit Card Abuse Act; H.R. 113, which would require the IGs of government corpora-
tions to audit earmarked funds; and S. 2321, the E-Government Reauthorization Act. Counsel’s Office also
reviewed and prepared an analysis on House Rule XI, which proposed amendments regarding committee
review of OIG and GAO reports; provided substantive comments on the Omnibus Appropriations Act of
2009; drafted statutory language for S.383, requiring coordination between the FDIC OIG and the Special
Inspector General for the Troubled Asset Relief Program; and worked jointly with other federal banking
Inspectors General to propose legislation that would raise the statutory threshold on conducting material
loss reviews under Section 38(k) of the FDI Act. Counsel’s Office has continued to provide legal advice to
Material Loss Review teams and criminal investigative teams on issues related to failed financial institutions.



Table I: Significant Recommendations From Previous Semiannual Reports on Which
Corrective Actions Have Not Been Completed
This table shows the corrective actions management has agreed to implement but has not completed, along
with associated monetary amounts. In some cases, these corrective actions are different from the initial
recommendations made in the audit reports. However, the OIG has agreed that the planned actions meet
the intent of the initial recommendations. The information in this table is based on (1) information supplied
by the FDIC’s Office of Enterprise Risk Management (OERM) and (2) the OIG’s determination of closed
recommendations for reports issued after March 31, 2002. These 4 recommendations from 4 reports involve
improvements in operations and programs. OERM has categorized the status of these recommendations as
follows:

Management Action in Process: (4 recommendations from 4 reports)
Management is in the process of implementing the corrective action plan, which may include modifications
to policies, procedures, systems or controls; issues involving monetary collection; and settlement negotia-
tions in process.




                                                                                                                     43
     Table I: Significant Recommendations From Previous Semiannual Reports on Which
     	        Corrective Actions Have Not Been Completed


                                                               Significant                Brief Summary of Planned Correc-
       Report Number, Title & Date                             Recommenda-                tive Actions and Associated
                                                               tion Number                Monetary Amounts

       Management Action In Process

       06-025                                                  3t                         Develop a written plan that defines
       Controls for Monitoring Access to                                                  a risk-based, enterprise-wide
       Sensitive Information Processed                                                    approach to audit logging and
       by FDIC Applications                                                               monitoring for the FDIC’s port-
                                                                                          folio of information systems.
       September 29, 2006

       AUD-08-003                                              1n                         Clarify guidance to examiners on
       FDIC’s Implementation of the                                                       the identification and reporting
       USA PATRIOT Act                                                                    of apparent customer identifica-
                                                                                          tion program (CIP) violations,
       November 30, 2007
                                                                                          including the consideration of
                                                                                          supplemental procedures and
                                                                                          forms and whether transaction
                                                                                          testing is a necessary basis for
                                                                                          citing apparent CIP deficiencies.

       AUD-08-014                                              1l                         Revise the Case Manager Procedures
       FDIC’s Controls Over the CAMELS                                                    Manual to require that changes
       Rating Review Process                                                              made to examiner-in-charge
                                                                                          proposed CAMELS ratings in the
       August 12, 2008                                                                    draft Report of Examination be
                                                                                          centrally managed by DSC, including
                                                                                          tracking, monitoring, and main-
                                                                                          taining the documented justifica-
                                                                                          tion and approval for changes.

       AUD-08-019                                              1                          Conduct an assessment of supervi-
                                                                                          sory information accessed through
       Reliability of Supervisory Information
                                                                                          the ViSION system in order to define
       Accessed Through the Virtual Supervi-
                                                                                          an acceptable accuracy rate and
       sory Information on the Net (ViSION)
                                                                                          define controls and responsibilities
       System
                                                                                          over the reliability of supervisory
       September 25, 2008                                                                 information consistent with the
                                                                                          results of the assessment.

     t	 The OIG has received some information but has requested additional information to evaluate management’s actions in response
     	 to the recommendation.
     n	 The OIG is reviewing management’s actions in response to the recommendation.
      Implementation scheduled for June 2009.
     l	
44
Table II: Audit Reports Issued by Subject Area



                     Audit Report                                    Questioned Costs      Funds Put to
 Number and Date                        Title                      Total     Unsupported    Better Use
 Supervision
 AUD-09-002              Examination Coverage of Under-
 February 6, 2009        writing Practices for Consumer
                         Loans Not Secured by Real Estate

 AUD-09-003              Material Loss Review of First
 February 18, 2009       Priority Bank, Bradenton, Florida


 AUD-09-005              Material Loss Review of The
 March 11, 2009          Columbian Bank and Trust
                         Company, Topeka, Kansas

 AUD-09-006              Material Loss Review of Integ-
 March 17, 2009          rity Bank, Alpharetta, Georgia


 AUD-09-008              Material Loss Review of Silver
 March 30, 2009          State Bank, Henderson, Nevada


 Insurance
 AUD-09-004              FDIC’s Controls Related to the
 February 19, 2009       Offsite Review List


 Resources Management
 AUD-09-001              Verification of the FDIC’s Data
 December 17, 2008       Submissions through the
                         Governmentwide Financial
                         Report System as of
                         September 30, 2008
 AUD-09-007              Control Improvements Under-
 March 26, 2009          taken by the Division of Informa-
                         tion Technology to Ensure the
                         Confidentiality of Sensitive Email
                         Communications
 AUD-09-009              Oversight Management of the
 March 31, 2009          Contract with the ARAMARK
                         Corporation

 Totals for the Period                                        $0           $0              $0



                                                                                                          45
     Table III: Evaluation Reports and Memoranda Issued

                 Evaluation Reports & Memoranda                                         Questioned Costs          Funds Put to
        Number and Date                              Title                            Total       Unsupported      Better Use
      Supervision
      EVAL-09-004                    Controls Over the FDIC’s
      March 20, 2009                 Processing of Capital
                                     Purchase Program Applica-
                                     tions from FDIC-Supervised
                                     Institutions
      Consumer Protection
      EM-09-001	                     Enforcement Actions for
      December 12, 2008	             Compliance Violations at
      	                              FDIC-Supervised Institutions
      Resources Management
      EVAL-09-001                    FDIC’s Corporate Employee
      January 9, 2009                Program
      EVAL-09-002                    FDIC’s Guard Services                                                          $2,094,750a
      February 6, 2009               Contract and Controls Over
                                     Access to Facilities

      EVAL-09-003                    FDIC’s Security Controls
      March 11, 2009                 Over Mail Handling and Mail
                                     Screening Processes at FDIC
                                     Facilities
      Totals for the Period                                                  $0                  $0                $2,094,750
     a	 Funds Put to Better Use are part of a range, from $2,094,750 to $5,236,872.



     Table IV: Audit Reports Issued with Questioned Costs

                                                                                                      Questioned Costs
                                                                           Number
                                                                                                  Total         Unsupported
      A. For which no management decision has been                                0                   0                  0
      	 made by the commencement of the reporting
      	 period.
      B. Which were issued during the reporting period.                           0                   0                  0
      Subtotals of A & B                                                          0                   0                  0
      C. For which a management decision was made                                 0                   0                  0
      	 during the reporting period.
      	 (i) dollar value of disallowed costs.                                     0                   0                  0
      	 (ii) dollar value of costs not disallowed.                                0                   0                  0
      D. For which no management decision has been                                0                   0                  0
      	 made by the end of the reporting period.
      	 Reports for which no management decision                                  0                   0                  0
      	 was made within 6 months of issuance.


46
Table V: Evaluation Reports and Memoranda Issued with Questioned Costs

                                                                        Questioned Costs
                                                       Number
                                                                     Total        Unsupported
A. For which no management decision has been               0          0                    0
	 made by the commencement of the reporting
	 period.
B. Which were issued during the reporting period.          0          0                    0
Subtotals of A & B                                         0          0                    0
C. For which a management decision was made                0          0                    0
	 during the reporting period.
	 (i) dollar value of disallowed costs.                    0          0                    0
	 (ii) dollar value of costs not disallowed.               0          0                    0
D. For which no management decision has been               0          0                    0
	 made by the end of the reporting period.
	 Reports for which no management decision                 0          0                    0
	 was made within 6 months of issuance.



Table VI: Audit Reports Issued with Recommendations for Better Use of Funds

                                                                     Number        Dollar Value
A. For which no management decision has been made by the                  0                0
	 commencement of the reporting period.
B. Which were issued during the reporting period.                         0                0
Subtotals of A & B                                                        0                0
C. For which a management decision was made during the reporting          0                0
	 period.
	 (i)	 dollar value of recommendations that were agreed to by             0                0
		 management.
		    - based on proposed management action.                              0                0
		    - based on proposed legislative action.                             0                0
	 (ii)	 dollar value of recommendations that were not agreed to by        0                0
		 management.
D. For which no management decision has been made by the end of           0                0
	 the reporting period.
	 Reports for which no management decision was made within                0                0
	 6 months of issuance.




                                                                                                  47
Table VII: Evaluation Reports and Memoranda Issued with Recommendations for
	          Better Use of Funds

                                                                             Number         Dollar Value
 A. For which no management decision has been made by the                        0                0
 	 commencement of the reporting period.
 B. Which were issued during the reporting period.                               1           $2,094,750
 Subtotals of A & B                                                              1           $2,094,750
 C. For which a management decision was made during the reporting                0                0
 	 period.
 	 (i) dollar value of recommendations that were agreed to by                    0                0
 		 management.
 	     - based on proposed management action.                                    0                0
 	     - based on proposed legislative action.                                   0                0
 	 (ii) dollar value of recommendations that were not agreed to by               0                0
 		 management.
 D. For which no management decision has been made by the end of                 0                0
 	 the reporting period.
 	 Reports for which no management decision was made within                      0                0
 	 6 months of issuance.



Table VIII: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations more than 6 months old without management decisions.

Table IX: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.

Table X: Significant Management Decisions with Which the OIG Disagreed
During this reporting period, there were no significant management decisions with which the OIG disagreed.

Table XI: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.




48
                        C
The OIG acknowledges the following
former staff who retired after
                                  Congratulations and
                                  Farewell to Retirees




                                        at the Department of Housing
                                        and Urban Development (HUD)
                                                                              merger of the RTC and FDIC Offices
                                                                              of Inspector General, Ms. Black was
distinguished federal careers:          as an accountant. By 1978 he          the Assistant IG for Inspections and
                                        had transferred to the General        Legal Support. She then served
                                        Services Administration where         as Counsel to the FDIC IG and as
Alban Abraham, Office of
                                        he worked as an accountant            Deputy IG under former IG Gaston
Evaluations                             in the Indian Trust Accounting        Gianni for several years. Following
                 Mr. Abraham            Unit. He then joined the Depart-      the retirement of Mr. Gianni in
                 retired after more     ment of Health and Human              December 2005, Ms. Black was
                 than 38 years of       Services in 1980 and served as        the FDIC Acting IG for a 6-month
                 federal service. His   an accountant and supervisory         period. When IG Rymer took
                 career began in        accountant until February 1988.       office in July 2006, she resumed
                 1970 at the Army       He subsequently joined the FDIC       her role as Deputy Inspector
                 Audit Agency. In       as a criminal investigator and was    General up to her retirement.
1979, he joined the OIG for the         with the OIG’s Office of Investiga-
General Services Administration,        tions for nearly 20 years. During
                                                                              Joan Dwyer, Office of
where he was responsible for            his last 8 years with the OIG, he
conducting and managing special         provided valuable advice and          Investigations
audits and audits of building           support as the Senior Technical                        Ms. Dwyer retired
management. His career shifted its      Advisor to the Assistant Inspector                     after nearly 28
focus to the banking industry in        General for Investigations.                            years of federal
1988 when he joined the Federal                                                                government
Home Loan Bank Board, which             Patricia Black, Deputy                                 service. Her career
was merged with the FDIC in 1989,                                                              included service at
and he was a valued member              Inspector General                                      the Federal Bureau
of the FDIC OIG up to his retire-                        Ms. Black retired    of Investigation; the Bureau of
ment. At the FDIC, in particular, he                     after more than      Alcohol, Tobacco, and Firearms;
played a key role in conducting                          34 years of          the Department of Defense; RTC;
and managing audits of FDIC                              federal service.     and the FDIC. At the FDIC, in
contractors and others providing                         She entered the      particular, Ms Dwyer was a primary
services to the Corporation,                             government in        contact between the headquar-
including numerous law firms.                            1970 as a co-op      ters and field offices and provided
                                        student at the Department of          advice and technical assistance
                                        Health, Education, and Welfare.       to agents based on her extensive
Karl Berberich, Office of
                                        Her career included service as        law enforcement experience
Investigations                          a law clerk at GSA and later an       and expertise. During her last 9
                 Mr. Berberich          attorney with GSA’s Board of          months at the FDIC, she served
                 retired after          Contract Appeals. She also served     with distinction in piloting an
                 more than 34           for 11 years with the HUD Office of   Ombudsman program for FDIC
                 years of federal       General Counsel. She was Counsel      employees, an activity that was a
                 service. His career    to the Inspector General of the       top priority for the FDIC Chairman.
                 began in 1974          Resolution Trust Corporation (RTC)
                 when he worked         throughout its existence. With the
                                                                                                               49
Nancy Frank, Office of                  Ben Hsiao, Office of Audits             Craig Russell, Office of
Management                                                Mr. Hsiao retired     Audits
                  Ms. Frank retired                       after nearly 32                      Mr. Russell retired
                  after nearly 37                         years of federal                     after nearly 42 years
                  years of federal                        government                           of combined military
                  service. Her career                     service. His                         and federal govern-
                  began in 1969 and                       distinguished                        ment service. His
                  the early 1970’s                        career included                      career included
                  when she worked                         civilian service as   military service to his country
at the Federal Trade Commission         an Operations Research Analyst          in the U.S. Army as well as a
in clerical positions on an intermit-   in both the Navy and the Air            civilian career at the U.S. General
tent basis while attending college.     Force and service at the OIGs of        Accounting Office, RTC, and the
Beginning in 1975, she served as        the Department of Energy, the           FDIC. For many years, Mr. Russell
a budget analyst at the Commis-         Environmental Protection Agency,        served the important role of Site
sion, advancing steadily in her         HUD, and finally, the FDIC. At the      Coordinator in the OIG’s Dallas
career over the years. By 1979 she      FDIC, in particular, Mr. Hsiao played   Office. Throughout his career
had transferred to the U.S. Secret      a key role in helping to ensure         he developed other audit staff
Service and served as a budget          the security of the Corporation’s       who grew professionally under
analyst for nearly 11 years. In         information systems. He was also        his guidance. More recently, Mr.
1990, she joined the RTC Office of      actively involved, including serving    Russell was involved in OIG work
Finance and soon thereafter joined      as president, in the National           related to the failure of IndyMac
the RTC OIG and held the posi-          Capital Area Chapter of the Infor-      Bank, FSB, and invested tremen-
tion of Financial/Budget Analyst        mation Systems Audit Control            dous time and energy on that
until the RTC’s sunset in December      Association, an organization for        assignment prior to his retirement.
1995. She then transitioned to the      information governance, control,
FDIC OIG where she served our           security, and audit professionals.
office with distinction for nearly
13 years. She worked tirelessly
to ensure that the OIG’s budget
and financial systems worked
efficiently and effectively. She
was also an excellent steward of
OIG funds and ensured financial
accountability and integrity.




50
